<html>
<title> - THE MAGNITSKY ACT AT FIVE YEARS: ASSESSING ACCOMPLISHMENTS AND CHALLENGES</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                    THE MAGNITSKY ACT AT FIVE YEARS:
                ASSESSING ACCOMPLISHMENTS AND CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE
                               
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 14, 2017

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 115-1-7]
                             
                             
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            
                             


                       Available via www.csce.gov
                       
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-314 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fc9b8c93bc9f898f889499908cd29f9391d2">[email&#160;protected]</a>                     
                       
                       


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS
                    
 

              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin			 SHELDON WHITEHOUSE, Rhode Island
                                           
                    
                    
                        EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]
                                  
                    THE MAGNITSKY ACT AT FIVE YEARS:

                ASSESSING ACCOMPLISHMENTS AND CHALLENGES

                              ----------                              

                           December 14, 2017
                             
                             COMMISSIONERS

                                                                   Page
Hon. Roger Wicker, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1

Hon. Benjamin Cardin, Ranking Member, Commission on Security and 
  Cooperation in Europe..........................................     2

Hon. Christopher Smith, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................     4

Hon. Steven Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    18

Hon. Gwen Moore, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    21

Hon. Sheldon Whitehouse, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    23

Hon. Cory Gardner, Commissioner, Commission on Security and 
  Cooperation in Europe

Hon. Sheila Jackson Lee, Commissioner, Commission on Security and 
  Cooperation in Europe

Hon. Jeanne Shaheen, Commissioner, Commission on Security and 
  Cooperation in Europe

                            COMMISSION STAFF

Ambassador David T. Killion, Chief of Staff, Commission on 
  Security and Cooperation in Europe.............................     1

                               WITNESSES

William Browder, CEO, Hermitage Capital Management...............     7

Garry Kasparov, Chairman, Human Rights Foundation................     9

Irwin Cotler, PC, OC, Chair, Raoul Wallenberg Center for Human 
  Rights.........................................................    12

                               APPENDICES

Prepared statement of Hon. Roger Wicker..........................    33

Prepared statement of Hon. Christopher Smith.....................    36

Prepared statement of William Browder............................    37

Prepared statement of Garry Kasparov.............................    42

Prepared statement of Irwin Cotler...............................    45

Material for the Record..........................................    49

 
                    THE MAGNITSKY ACT AT FIVE YEARS:
                       ASSESSING ACCOMPLISHMENTS
                             AND CHALLENGES

                              ----------                              


                           December 14, 2017

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 9:36 a.m. in Room 562, Dirksen 
Senate Office Building, Washington, DC, Hon. Roger Wicker, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Roger Wicker, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Benjamin 
Cardin, Ranking Member, Commission on Security and Cooperation 
in Europe; Hon. Christopher Smith, Co-Chairman, Commission on 
Security and Cooperation in Europe; Hon. Steven Cohen, 
Commissioner, Commission on Security and Cooperation in Europe; 
Hon. Gwen Moore, Commissioner, Commission on Security and 
Cooperation in Europe; Hon. Sheldon Whitehouse, Commissioner, 
Commission on Security and Cooperation in Europe; Hon. Cory 
Gardner, Commissioner, Commission on Security and Cooperation 
in Europe; Hon. Sheila Jackson Lee, Commissioner, Commission on 
Security and Cooperation in Europe; and Hon. Jeanne Shaheen, 
Commissioner, Commission on Security and Cooperation in Europe.
    Commission staff present:  Ambassador David T. Killion, 
Chief of Staff, Commission on Security and Cooperation in 
Europe.
    Witnesses present:  William Browder, CEO, Hermitage Capital 
Management; Garry Kasparov, Chairman, Human Rights Foundation; 
and Irwin Cotler, PC, OC, Chair, Raoul Wallenberg Center for 
Human Rights.

    HON. ROGER WICKER, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wicker. [Sounds gavel.] The hearing of the Commission 
will come to order, and good morning to all of you. Welcome to 
today's hearing on ``The Magnitsky Act at Five Years: Assessing 
Accomplishments and Challenges.''
    Before we begin today, I want to recognize Ambassador David 
Killion.

  AMBASSADOR DAVID T. KILLION, CHIEF OF STAFF, COMMISSION ON 
               SECURITY AND COOPERATION IN EUROPE

    Amb. Killion. Right here, Senator.
    Mr. Wicker. Just stand for a moment. Thank you. Thank you, 
David--the Helsinki Commission Chief of Staff who is retiring 
at the end of this month after 23 years of federal service. 
Senator Cardin and I joined together to appoint Ambassador 
Killion to direct the Commission at a key moment, shortly after 
Russia's invasion of Crimea in 2014. So let's give Ambassador 
Killion a round of applause. [Applause.]
    Ambassador Killion's leadership has contributed greatly to 
enhancing the stature and impact of our Commission as it 
develops U.S. policy responses to critical security threats in 
the OSCE region. With his considerable diplomatic skills, he 
has also managed to keep our Commission unified, enabling us to 
speak with a strong voice when necessary on issues such as 
Russia's violation of its Helsinki commitments. In addition, 
Ambassador Killion has extended Commission leadership to new 
and critically relevant policy areas such as the effort to 
combat kleptocracy. As such, this hearing is a perfect capstone 
to Ambassador Killion's work for us.
    Ambassador, thank you for your public service.
    This is the Commission's final hearing of 2017.

 HON. BENJAMIN CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Mr. Chairman, on Ambassador Killion--if I 
could, just for one moment--I really want to join you in 
thanking Ambassador Killion for his service to the Helsinki 
Commission and to our country. He had a distinguished career as 
an ambassador to UNESCO and brought that talent to the Helsinki 
Commission. What we really love about this Commission and its 
work, it's never been partisan. It's been professional. And Mr. 
Killion has continued that legacy during extremely difficult, 
turbulent times.
     I want to thank him for his service to our country, thank 
him for his service to this Commission, and wish him well.
    Amb. Killion. Thank you.
    Mr. Wicker. Thank you, Senator Cardin. And I'm sure you 
have expressed the feelings of us all.
    The Magnitsky Act was authored by Senator McCain, Senator 
Cardin, and me to hold accountable the Russians who were 
responsible for the torture and murder of tax attorney Sergei 
Magnitsky in 2012. Why was the Helsinki Commission concerned 
about this particular crime? The mandate of the Helsinki 
Commission requires us to monitor the acts of the signatories 
which reflect compliance with or violation of the articles of 
the Final Act of the Conference on Security and Cooperation in 
Europe, also known as the Helsinki Final Act. Those articles 
deal with commitments in three major areas, or baskets: 
security, economics, and the human dimension. The case that 
ended with Sergei Magnitsky's tragic death concerned major 
violations in two of these three baskets: massive corruption in 
Russia, which the OSCE attempts to deal with through economic 
measures, and the egregious human rights violations involved in 
the unspeakable treatment of Sergei Magnitsky.
    The five years that have elapsed since the passage of the 
Magnitsky Act and the eight years that have elapsed since Mr. 
Magnitsky's murder have certainly shown that our concern with 
Russia's unchecked corruption and wanton disregard for human 
rights was well founded. In that time corruption has continued 
to eat away at the fabric of Russian society, enabling further 
misbehavior both within and beyond Russia's borders. The state 
at this point can truly be described as a kleptocracy, where 
Putin rules with the help of a group of cronies whose loyalty 
is guaranteed by transfers of wealth stolen from the Russian 
people. Russia has violated the territorial integrity of a 
European state and interfered with the elections of a number of 
OSCE participating States, including the United States. And, of 
course, Russian citizens continue to suffer from the policies 
of their own government on a daily basis.
    Russian opposition leader Boris Nemtsov, who was himself 
murdered in 2015 within sight of the Kremlin walls, deemed the 
Magnitsky Act, quote, ``the most pro-Russia law for justice.'' 
We do sincerely hope that the Magnitsky Act will one day lead 
to justice, not only for Sergei Magnitsky and his family and 
friends, but also for all Russians who suffer violations of 
their universal rights by a state that believes it is 
accountable to no one.
    We have three remarkable witnesses to speak to us today 
about what the Magnitsky Act has accomplished, as well as what 
still needs to be done to encourage Russia to respect the 
rights of its citizens and live up to its OSCE commitments.
    We will first hear from William Browder, the CEO of 
Hermitage Capital, the firm that was plundered to the tune of 
$230 million in a massive tax-evasion scheme by Russian 
authorities. Mr. Browder has worked tirelessly for the past 
eight years, at great risk to his own safety, to bring those 
responsible for Sergei Magnitsky's murder to justice. I 
strongly encourage any of you who have not read the book ``Red 
Notice'' to do so. It is a gripping and unforgettable account 
of massive corruption, torture, and murder with impunity.
    After that, Garry Kasparov will provide us with a broader 
view, addressing the full scale of corruption and human rights 
violations in Russia. Mr. Kasparov is well known to most of us 
as one of the greatest chess players in history, becoming the 
youngest world champion ever at age 22 in 1985. He's now 32, I 
believe. [Laughter.] But I don't count very well. After 20 
years at the top of the chess world, he gave it up and joined 
the fledgling Russia pro-
democracy movement in 2005. He participated, along with Boris 
Nemtsov, in the May 2012 Bolotnaya Square demonstrations, one 
of the biggest protests held in Russia since the 1990s. These 
protests were followed by an extensive crackdown that forced 
him to leave the country and relocate to New York. Mr. Kasparov 
is the chairman of the New York-based Human Rights Foundation, 
and he has also found the time to write a book entitled 
``Winter is Coming: Why Putin and Enemies of the Free World 
Must Be Stopped.''
    And then we will hear from Honorable Professor Irwin 
Cotler, who will testify about his work to pass a Canadian 
version of the Magnitsky Act. The pressure from Russia on Mr. 
Cotler and other Canadian backers of that bill has been 
immense, just as it has been in every other country that has 
considered passing a version of the Magnitsky Act. Professor 
Cotler has a distinguished career in advancing human rights 
around the world, not only as Canada's attorney general and 
justice minister, but also as founder and chair of the Raoul 
Wallenberg Center, an institution dedicated to bringing 
together all parts of civil society in the defense of human 
rights.
    And so we welcome our panel. And before we proceed to 
testimony, I'd like to ask my distinguished Co-Chair, Mr. Smith 
of New Jersey, if he would like to make any remarks.

   HON. CHRIS SMITH, CO-CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. Thank you, Mr. Chairman.
    First of all, I want to join you in thanking Ambassador 
Killion for his service to the Commission. He served as 
ambassador to UNESCO, where pervasive and systematic anti-
Semitism abounds to this very day, and he did a valiant fight 
against those other ambassadors and those other countries. And 
I want to thank him for that.
    And I've known David since he was on the Foreign Affairs 
Committee, working with Tom Lantos, so I want to thank him for 
his service to our country and to the Commission. Thank you, 
David.
    Thank you, Mr. Chairman, for convening this very important 
hearing on the fifth anniversary of the Sergei Magnitsky Rule 
of Law Accountability Act. This all began with Sergei 
Magnitsky's investigation into the brazen theft of $230 million 
from the Russian people by officers of FSB Unit K in the 
Interior Ministry. Sergei continued to expose Colonel Kuznetsov 
and Major Karpov's plunder from foreign investors, and 
documented how they lavishly spent it while millions of 
Russians struggled to get by. For that, Kuznetsov and Karpov 
illegally detained Sergei, repeatedly tortured him, and denied 
him medical attention, all in the hope that they could force 
him to confess and absolve themselves of their crimes. Sergei 
was murdered because he would never confess to trumped-up 
charges and never gave in to the brutality. Kuznetsov and 
Karpov were only two out of 60 Russians that were determined to 
be involved in this horrific crime and its coverup.
    Congress passed the Sergei Magnitsky Act five years ago to 
ensure that Sergei and his family got the justice they 
deserved--at least a modicum of justice--and to send a message 
to Russia that this will not stand. The identification and 
sanction of those involved in all aspects of Sergei's illegal 
detention, torture, and murder struck right to the heart of the 
Kremlin's elite. It sent an unmistakable signal that the United 
States of America is prepared to sanction all those involved in 
human rights abuses in Russia.
    In response, President Putin took his wrath out on innocent 
Russian orphans who had been destined to be adopted by American 
families. And I've met with many of them, as have many of my 
colleagues. Some of those kids in Russia were in need of 
serious medical attention, and their hopes of a loving family 
and a happier life were dashed, all because the cynical Kremlin 
elite saw harming vulnerable children as the best means to 
retaliate against the United States.
    Putin, still reeling from the impact of the Magnitsky Act, 
lashed out at the U.S. Government and at many of us on this 
Commission and in the House and the Senate. I was denied a visa 
when I tried to do a trip on Magnitsky and also on human 
trafficking, as the OSCE special representative for 
trafficking. Russia has a huge problem with trafficking, 
particularly of women into sex trafficking. And I met with 
their ambassador, and I was denied and was told the reason was 
the Magnitsky Act.
    I would point out parenthetically that during the worst 
days of communism, at least when I was in Congress--I got 
elected in 1980, took office in 1981--I went in 1982 with the 
National Conference on Soviet Jewry. They didn't want us there. 
We spent 10 days in Moscow and Leningrad, met with refuseniks 
including Sharansky's mother, but we got visas. The same thing 
happened when Frank Wolf and I went to Perm Camp 35 just a few 
years later. We got into the infamous Perm Camp where Sharansky 
and many other political and refuseniks and others had spent 
time, thousands of miles outside of Moscow in the Ural 
Mountains. But we got visas. But because of the Magnitsky Act, 
this penalty, this punitive action has denied many of us visas 
to go there to raise human rights issues face to face with the 
Kremlin elite.
    So I want to thank you, Mr. Chairman, for convening this 
important hearing. I have to point out at 10:00 we have a 
markup on four bills in the Foreign Affairs Committee. I have 
to speak on two of them, so I will have to leave. But I wanted 
to know the three distinguished witnesses who are here in our 
room--Irwin, we worked so long and hard on combating anti-
Semitism--and thank you for your great leadership there as 
well.
    And, again, Mr. Chairman, I'm sorry to have to go.
    Mr. Wicker. Thank you very much, Representative Smith.
    Senator Cardin.
    Mr. Cardin. Well, Chairman Wicker, first of all, thank you 
for your leadership on the Helsinki Commission. You have been a 
true champion on the human rights basket of the OSCE and the 
U.S. participation, and I thank you for convening this hearing.
    We do have three very distinguished witnesses here today, 
and we thank all three for being here.
    Mr. Browder, I remember when you first brought Sergei 
Magnitsky to my attention in June of 2009, and I was shocked to 
hear what had happened. And you were able to do something that 
has been very difficult. What happened to Sergei Magnitsky was 
not unique under Mr. Putin in Russia, but what made it unique 
was your ability to tell that story to the international 
community. And the international community was forced to take 
action, and you were able to take that activity to help so many 
people around the world. So I thank you for your courage, and I 
thank you for making sure that we remember Sergei Magnitsky, 
remember his courage, and are motivated by him every day.
    To Mr. Cotler, I want to thank you. Canada has been our 
true ally and friend because there was a lot of pushback about 
taking action against Russia, and your leadership in Canada, 
your leadership in helping us with the OSCE Parliamentary 
Assembly was critical. And we thank you for that partnership, 
for giving us international legitimacy to moving forward on the 
Magnitsky Act.
    And, Mr. Kasparov, I want to thank you because you 
represent the Russian people, what the Russian people want. 
This is not about penalizing Russia. It's about penalizing the 
leaders of Russia for what they're doing, and first hurting the 
people of their own country.
    So I thank our three witnesses.
    The tragic death of Sergei Magnitsky in November 2009 for 
discovering $230 million of corruption, one of the largest in 
the history of Russia, was just beyond our comprehension, that 
the political leadership of Russia could stoop to that type of 
level and take out the life of a very young lawyer. And we took 
some action. We, the Helsinki Commission, said, look, we're 
going to do some things.
    And I remember conversations I had with the administration 
on how we could perhaps use the visas or use the banking system 
to take action against the known perpetrators, and those 
conversations were going through the normal bureaucracy 
problems that you see in the executive branch and in diplomacy. 
So, in April of 2010, I sent a letter to Secretary of State 
Clinton suggesting formally that she take action. And they were 
considering it.
    And then, Mr. Chairman, we came to the conclusion that for 
this to really work--we knew the executive had the authority, 
but would they exercise that authority? Because when you talk 
about bilateral relations with countries, there's so many 
things on the agenda; will human rights really get the place it 
needs? So we knew that Congress needed to act.
    And the Helsinki Commission did get engaged on this issue. 
I filed legislation, and I was proud of so many people who 
joined in that. And I thank the Chairman, Senator Wicker. 
Clearly, Senator McCain was one of our true champions through 
this process, and our prayers are with him on his health as we 
go through this. I also want to mention Kyle Parker, a staff 
member of the Helsinki Commission who was critically important 
in keeping us focused. And, again, this never became partisan, 
and we worked it through the Senate.
    I then went on the Senate Foreign Relations Committee and 
got a little bit of a hostile treatment there. But a champion 
emerged, and I have to mention that. Senator Lugar was a real 
champion in giving us, again, the bipartisan support. Senator 
Shaheen was a critical supporter on the Senate Foreign 
Relations on this issue. And we got it enacted, and we 
celebrate the fifth anniversary of its enactment.
    But we didn't stop there, because it was Russia-specific 
and we knew that these problems are global. And last year we 
passed the Global Magnitsky Act.
     I just really want to acknowledge that when we lead, we 
find other countries that follow. And with Canada and U.S. 
leadership, we've seen action taken in Estonia, in Lithuania, 
in U.K., and we've made significant progress.
    So I just really want to acknowledge the importance of the 
work that has been done, but as I said earlier, we can't rest 
on our laurels. There are serious issues globally taking place. 
The administration is supposed to present their Global 
Magnitsky list very shortly, and we'll be watching that very 
closely. We also will be watching their implementation of the 
Russian sanction law. That requires reports as early as next 
month, and we'll be watching very closely to make sure they 
comply with the laws that we have passed.
    The bottom line is that the Helsinki Commission and the 
United States Congress have taken leadership on this issue, and 
we will continue to lead on protecting human rights globally.
    Mr. Wicker. Thank you very much. And let me note at this 
point that other representatives and senators may have 
statements that they can enter into the record at this point.
    But right now we are eager to hear our witnesses. And, Mr. 
Browder, you are recognized for such time as you may consume. 
Thank you.

       WILLIAM BROWDER, CEO, HERMITAGE CAPITAL MANAGEMENT

    Mr. Browder. Good morning, Chairman Wicker, Ranking Member 
Cardin, Co-Chair Smith. Thank you very much for the opportunity 
to come here and to testify on the fifth anniversary of the 
passage of the Magnitsky Act.
    I could have never imagined on the 17th of November, 2009, 
the day that I learned that Sergei Magnitsky had been murdered, 
that three years later the most important piece of human rights 
legislation of this century would come into force in the United 
States and be name after Sergei Magnitsky.
    And on December 14th, 2012, five years ago today, when the 
Magnitsky Act was passed, I could have never imagined that the 
Magnitsky movement would emerge from the work that started 
here, that would lead to five countries now having the 
Magnitsky Act in place and many more with it on the agenda. We 
truly have a global movement.
    And I should emphasize that this global movement started 
right here. It started with the Helsinki Commission. It started 
first with a staff meeting. I had a staff meeting with Kyle 
Parker--whom I guess you will recognize as now being your new 
chief of staff shortly--in which I told the story of Sergei 
Magnitsky. And this was actually in 2009, before Sergei 
Magnitsky had died. It was while he was still alive and in 
prison. And Kyle was so shocked by the story he said, I think 
we should invite you to a Helsinki Commission hearing.
    And it was at that moment that I met Senator Cardin. And 
Senator Cardin heard the story while Sergei Magnitsky was still 
alive. And because he heard this shocking story of injustice 
and corruption while Sergei was still alive, when Sergei was 
murdered, Senator Cardin was the first leader on the scene to 
do something about it. And Senator Cardin introduced, in 
October of 2010, together with Senator Wicker, Senator McCain, 
and Senator Lieberman, the Sergei Magnitsky Act.
    The Sergei Magnitsky Act was, as you have pointed out, 
something where we then had Garry Kasparov and Boris Nemtsov 
and various others coming and saying, this is not an anti-
Russian piece of legislation, this is a pro-Russian piece of 
legislation, and it took on great resonance as other victims 
came forward. And in spite of the fact that at the time the 
U.S. administration was trying to reset relations with Russia, 
this was one of the moments in Washington where morality 
overcame realpolitik, and when it came for a vote in the Senate 
it passed 92 to 4, as you know, it passed 89 percent of the 
House of Representatives, and it was signed into law.
    And I'm happy to be sitting here with you today knowing 
that you decided not to stop with just that, but to take it 
globally. And Senator Cardin, Senator Wicker, Senator McCain 
then introduced the Global Magnitsky Act in 2015. And in spite 
of fierce, aggressive opposition by the Russian Government--and 
the Russian Government did not want to have the Magnitsky 
legacy on the Global Magnitsky Act, and Natalia Veselnitskaya, 
the famous lobbyist, showed up here in the halls of Congress 
with highly paid lobbyists and lawyers and PR firms trying to 
take the Magnitsky name off of that piece of legislation. They 
went to Trump Tower to talk about this legislation. But in 
spite of their great efforts, the Global Magnitsky Act passed.
    On roughly the same day as Global Magnitsky passed in 2016, 
the Estonians--a little country in the Baltics, right on the 
border of Russia--passed their Magnitsky Act. And then the 
U.K., the country where I live and where I'm a citizen, passed 
the Magnitsky Act in May of this year.
    And I'm particularly proud to be sitting here with Irwin 
Cotler. Irwin Cotler is the father of the Magnitsky Act in 
Canada. As Senator Cardin is to the Magnitsky Act in America, 
Irwin Cotler is to the Magnitsky Act in Canada. I went to Irwin 
in 2010. And it took us a little longer; it took us seven 
years. But I actually had tears running down my face when I 
watched the Parliament voting 277 to zero in favor of the 
Canadian Magnitsky Act. And it was even more moving when I 
brought the Magnitsky family to the Canadian Parliament a few 
weeks later, and the Parliament stood up and gave the family a 
two-minute standing ovation for the sacrifice that Sergei had 
made.
    And then, on the eighth anniversary of Sergei's murder, the 
Lithuanian parliament voted 71 to zero, and the Lithuanians 
passed it.
    There are now a number of countries that are teeing up the 
Magnitsky Act. Ukraine is going to introduce a Magnitsky Act. 
Gibraltar, without any intervention from any activists, have 
introduced their version of the Magnitsky Act. The South 
African Parliament will be introducing a Magnitsky Act. And 
there are many, many others.
    As you can imagine, Putin has been not too happy about 
this, and I've paid a high personal price for this. After the 
U.S. Magnitsky Act was passed, I was put on trial, together 
with Sergei Magnitsky, in the first-ever trial against a dead 
man in the history of Russia. They sentenced me to nine years 
in absentia to serve in a Russian prison colony. Afterwards, 
they have applied to Interpol five times to have me arrested on 
an Interpol arrest warrant. The most recent application came 
right after the Canadian act was passed. Fortunately, Interpol 
has rejected all five requests. The Russians have approached 
the British Government on 12 different occasions asking for 
mutual legal assistance and extradition. Thankfully, the 
British Government has rejected all those requests.
    But the Russians don't give up. They've since accused me of 
serial murder. They've accused me of murdering Sergei 
Magnitsky. They've accused me of espionage, of being a CIA/MI6 
agent trying to destabilize Russia. They've accused me of 
stealing $4.8 billion from the IMF. They've accused me of tax 
evasion, fraud, and many other things.
    They've not stopped with just legal nastiness. They've also 
threatened to kill me. They have threatened to kidnap me. They, 
of course, tried to arrest me, and various other things.
    But I'm not stopping. I'm not stopping, and nor should you.
    And so there are four things that we still need to do that 
are on my list. The first is that, while we have a Magnitsky 
Act, the Magnitsky list is incomplete. There are 44 people on 
the Magnitsky list so far; 35 of them are involved in the 
Magnitsky case. We submitted 282 names to the State Department, 
and those many other unsanctioned people need to be sanctioned.
    The second thing is that people have learned to evade 
Magnitsky sanctions. There's a man named Dmitry Klyuev, who is 
on the Magnitsky list. Dmitry Klyuev is the head of the Klyuev 
organized crime group. And Dmitry Klyuev, shortly before being 
put on the Magnitsky list, moved all his assets into the names 
of nominees. I presented that information to the U.S. Treasury 
to say that he and his nominees are in violation of U.S. 
sanctions. So far, no action has been taken.
    And it's not just Klyuev, but the entire concept of Bitcoin 
and cryptocurrencies are a way to avoid Magnitsky sanctions and 
all other sanctions. And this is a huge issue that needs to be 
addressed going forward, because while these sanctions have 
worked in the past, they won't work in the future if people can 
move money anonymously around the world.
    And then, finally, there is one provision in the Magnitsky 
Act which most people don't know about, which I want to bring 
to your attention, which is that it's also the U.S. 
Government's responsibility to advocate for Magnitsky Acts in 
other countries. It's in the law. At the moment, it's been used 
informally, and I'd like to ask you to promote the idea that 
the government formalizes its advocacy in other countries. And 
the best place to do that will be at the G-7 meeting in June in 
Canada. At the G-7 meeting there will be three countries of the 
G-97--the United States, Canada, and the United Kingdom--that 
all have Magnitsky Acts, and there are four other countries 
that don't. And it should be a U.S. official policy, together 
with the Canadians and the U.K., to promote it among our allies 
at the G-7.
    I should say that all of this stuff has happened because of 
the great work of your Commission and the great work of my 
colleagues here on the panel and other people. But it also has 
happened because Sergei's story is biblical in its good versus 
evil. And I hope that you will carry on in this campaign for 
justice in this moment for Sergei Magnitsky.
    Thank you very much.
    Mr. Wicker. Thank you very much, Mr. Browder.
    Mr. Kasparov, you're recognized.

       GARRY KASPAROV, CHAIRMAN, HUMAN RIGHTS FOUNDATION

    Mr. Kasparov. Thank you for having me here today, and to 
Chairman Wicker and Co-Chairman Smith and Ranking Member Cardin 
for holding these hearings on a topic of vital national and 
international security.
    I will understand if few of you recall that I spoke here 
over 13 years ago, in May 2004, on a panel titled ``Human 
Rights in Putin's Russia.'' At the time, Bill Browder and I 
were still attempting to do our part to salvage democracy and 
the rule of law from inside Putin's Russia, while the entire 
democratic world preferred to ignore the true nature of what 
Putin was doing in my country.
    Mikhail Khodorkovsky had just been arrested. There were 
still a dwindling handful of Russian media not under direct 
Kremlin control. The Russian Parliament still had a few members 
who would occasionally criticize Putin. Anna Politkovskaya, and 
Boris Nemtsov, Sergei Magnitsky, and so many others who opposed 
Putin were all still alive.
    I am not the sort of person to wallow in nostalgia, but 
it's hard not to think of how different Russia and the world 
might be today had the free world taken a stand against 
Vladimir Putin back then, before he had consolidated total 
power in Russia. In 2004, Putin still needed friends on the 
international stage, and he had many of them. By 2012 that 
phase was over, and a far deadlier phase of dictatorship began, 
when Putin needed not friends, but external enemies to justify 
his eternal grip on power. Today, there is no longer any need 
to discuss human rights in Putin's Russia. They are gone, and 
Putin is revealed to all as what we warned he could become: a 
dictator.
    And please do not speak of Putin's supposed popularity. A 
popular leader does not need to fake elections, or destroy the 
free media, or jail critics and kill opposition leaders. Status 
that is artificially fashioned by 24/7 propaganda, repression 
of all dissent, and the elimination of all rivals is not 
approval, it is dictatorship.
    Here, 13 years ago, I said: ``Without Western attention and 
pressure, the situation will only worsen during Putin's next 
four years.'' We still dreamed that Putin could be forced to 
hold real elections in 2008, but it was not to be. Later I 
said: ``Putin is a Russian problem, for Russians to deal with. 
But if he isn't stopped, he will soon be a regional problem--
and after, he will be everyone's problem.''
    Fast-forward to 2006 and the murder of Russian anti-Putin 
whistleblower Alexander Litvinenko in London with a nuclear 
isotope; 2008, and Putin's invasion of Georgia, for which he 
also suffered no consequences and was even rewarded with the 
infamous American ``reset.'' Jump to 2012 and Putin's broad 
crackdown against any and all opposition and demonstrations, 
which led to Boris Nemtsov's murder and my own exile; to 2014 
and Putin's invasion of Crimea and eastern Ukraine; to 2016 and 
direct Russian interference in the American presidential 
elections after similar activities in the U.K., Netherlands, 
and elsewhere in Europe.
    Natan Sharansky quotes Andrei Sakharov saying: ``The 
country that doesn't respect the rights of its own people will 
not respect the rights of its neighbors.'' And as the United 
States discovered last year, in the age of internet we are all 
neighbors.
    For a decade now, many of us familiar with the reality of 
Putin and his regime, including both of my fellow guests here 
to offer testimony, have insisted that the only effective way 
to pressure Putin is to target the only thing he cares about: 
his hold on power in Russia. And that the best way to target 
Putin's power is to take aim at his agents and cronies and 
their money, to pursue the mafia that holds the levers of power 
and who benefit the most from Putin's rule. The individuals who 
can influence Putin must be targeted or there can be no 
effective deterrence.
    There is no national Russian interest Putin cares about 
beyond propaganda value. In fact, Russian national interest and 
Putin's interests are diametrically opposed in nearly every 
way. Putin does not care about the Russian people, the Russian 
economy, or the image of Russia abroad. I repeat: He does not 
care. This is why legislation that targets Putin and his mafia 
is pro-Russia, not anti-Russia. A strong, free, and democratic 
Russia would be an ally of the West, and that can never happen 
under Putin.
    But I know that first and foremost we are here to discuss 
the interests of the United States--its security, integrity, 
and economic well being. Consider the American and other free 
world policy goals of dealing with Putin's aggression. One, to 
improve American and international security by deterring him 
from further hostile acts. Ukraine, Syria, Venezuela, missile 
tech to North Korea, election meddling--Putin's attacks are 
asymmetric, and so the global response must be asymmetric as 
well, by going after what matters to him most. Two, to threaten 
Putin's grasp on total power in Russia by forcing his elites to 
choose between loyalty to him and their fortunes abroad. Three, 
to support the long-term interests of the Russian people by 
exposing the corruption of our rulers. To all three of these 
goals, the Magnitsky Act is the answer.
    Putin's regime is a mafia, and you have to fight it like a 
mafia. Very strong penalties must be ready and widely known. I 
understand that deterrence is difficult because its fruits are 
not apparent. If it works, maybe nothing visible happens. To 
those who say that sanctions have not worked, can you say what 
else Putin might have done without them in place, or why he 
works so frantically to have them repealed?
    Progress in a hybrid war is not measured in territory 
conquered or battlefield casualties. Corrupting influence and 
propaganda spread like contagious diseases. You can measure the 
effectiveness of the Magnitsky legislation the way you measure 
the effectiveness of antibiotics: You put a drop in the petri 
dish and see if the bacteria stop growing, if the bacteria 
respond to the antibiotic and die. By this measure, the 
Magnitsky Act has been effective, and could be much more 
effective if strengthened and implemented globally and 
aggressively.
    Last month, a Reuters report said anxiety was spreading 
among Russia's wealthiest because of sanctions and the threat 
of the U.S. blacklist. It reported that some business leaders 
were trying to avoid being seen in public near Putin and to 
distance themselves. This is progress. It shows the medicine is 
effective. But anxiety is not enough to turn someone against a 
brutal dictator. Avoiding photo-ops is not enough to bring down 
a mafia. It's essential to increase the pressure, to continue 
with what works now that the right path has been confirmed. 
There is no other method.
    Putin's weapons of hybrid war can only be defended against 
at great difficulty and expense. Misinformation, cyberwarfare, 
and his other methods are cheap and easy to deploy. And to take 
it from a pretty good chess player, playing only defense is 
always a losing game. The answer is deterrence. Putin and his 
gang must understand that if he continues on this path, their 
fortunes, their families' comfortable lives abroad, will be at 
risk. They aren't really politicians, nor are they jihadists or 
ideologues. They are billionaires who are used to profiting 
from dictatorship at home while enjoying the good life in the 
West, an advantage the Soviet leaders never had.
    This is increasingly true of other hostile regimes around 
the world: Small groups of ruling elites who do not care about 
traditional national interests and diplomatic levers of power 
because they are only interested in their personal success. 
Engagement does not work with them. Diplomacy doesn't, either. 
Magnitsky legislation does.
    End the perverse double standards. Follow the money, the 
real estate, the stock, and reveal it, freeze it, so that one 
day it can be returned to the people from whom it was looted, 
and to help rebuild the countries that have been drained for so 
long. In Russia's case, the brittle nature of Putin's one-man 
dictatorship will be exposed very quickly.
    At a lecture in New York City in 1975, my Russian 
predecessor-in-exile Aleksandr Solzhenitsyn said, ``The men who 
created your country never lost sight of their moral bearings. 
Their practical policies were checked against that moral 
compass. A practical policy on the basis of moral 
considerations turned out to be the most farsighted and most 
salutary.'' That is, the most moral policy turns out to be the 
most effective policy.
    The alternative to appeasement is not war, it is 
deterrence. And worrying about retaliation is absurd when Putin 
will continue to escalate anyway, as long as he thinks he can 
get away with it. The best way to avoid an escalating conflict 
is to convince your opponent that he will lose. And make no 
mistake, there is a war going on, whether you want to admit it 
or not. It's very easy to lose a war that you refuse to 
acknowledge even exists. Engagement has failed, because Putin 
was never your friend. There is no common ground. Now he has 
revealed his true colors as a sworn enemy of the free world. 
And time is of the essence.
    Thank you.
    Mr. Wicker. Thank you very much, Mr. Kasparov.
    Mr. Cotler.

IRWIN COTLER, PC, OC, CHAIR, RAOUL WALLENBERG CENTER FOR HUMAN 
                             RIGHTS

    Mr. Cotler. Thank you, Senator. I'm delighted to be able to 
participate here in the common cause which brings us together, 
the struggle against the cultures of criminality and corruption 
and, in particular, the impunity that underpins them. And this 
is part of a large struggle for justice and accountability, 
both domestically and internationally. We meet, as has been 
mentioned, at an important moment of remembrance and reminder--
the eighth anniversary of the torture and murder of Sergei 
Magnitsky, who not only uncovered the largest corporate tax 
fraud in Russian history, documented it, but paid for it with 
his life. And where, in a move that would make Kafka blush, 
Magnitsky was posthumously prosecuted for the very fraud and 
criminality that he had exposed.
    The fifth anniversary of the adoption here in the United 
States of the Sergei Magnitsky Rule of Law Accountability Act 
and which, in particular, inspired other similar initiatives 
elsewhere, including in Canada, and the immediate aftermath of 
the unanimous adoption on October 18th by both houses of the 
Canadian Parliament of global justice for Sergei Magnitsky 
legislation, titled formally Justice for Victims of Corrupt 
Foreign Officials Act.
    Accordingly, what I would like to do here is first 
summarize briefly the process in Canada as a matter of 
chronology and content that led to this historic, albeit 
belated, Canadian initiative; second, summarize the raison 
d'etre for this legislation; and finally some brief comments 
dovetailing with what my colleagues and witnesses put forward 
to you--brief comments, where do we go from here in Canada and 
internationally.
    First, having regard to the genesis and development of the 
Magnitsky process in Canada--it was inspired, not unlike the 
situation here in the U.S., by an encounter that I had with 
Bill Browder in 2010, and which led to the launch of the 
Justice for Sergei movement in Canada. A series of initiatives 
in November 2010 alone, following that encounter, provide a 
looking glass into the character and content of the movement, 
which included then a meeting of our foreign affairs 
subcommittee on international human rights, with Bill Browder 
as our principal witness on November 2nd, and then unanimous 
adoption by the foreign affairs subcommittee of my motion at 
the time calling inter alia for justice for Sergei Magnitsky 
legislation, modeled on the U.S. initiative.
    One year later, I introduced a private members bill titled 
``An Act to condemn corruption and impunity in Russia in the 
case and death of Sergei Magnitsky,'' which was the first 
legislative initiative of its kind in the Canadian Parliament. 
But coming from an opposition party member, it required support 
from the government of the day, which regrettably was not 
forthcoming. In 2012, Boris Nemtsov, who has been mentioned, a 
leading Russian democrat, came to Canada to support my private 
member's bill, along with Vladimir Kara-Murza, and where he 
mentioned at the time, as has been characterized here, that 
justice for Sergei Magnitsky legislation would be the most pro-
Russian legislation, on behalf of the Russian people, that we 
could adopt.
    Later that year, together with Bill Browder and really 
under his leadership, we launched the Justice for Sergei 
Magnitsky Interparliamentary Group, which led to resolutions 
being adopted in the European Parliament, other European 
countries, and subsequently adoption of legislation itself in 
Estonia, Lithuania, and the like. In 2013, the pattern of 
unanimous motions continued, but the focus now shifted to 
making representations to the Canadian Government, where we 
conveyed the documentary evidence that you had collected here 
at the time, of 60 Russian officials. But our efforts, again, 
to get government action in Canada were unavailing.
    The year 2014 began with Canada sanctioning Russian 
officials for their aggression in Crimea and Ukraine. And I 
remember saying at the time that had we moved earlier to 
sanction Putin's Russia for their domestic repression, we might 
have perhaps sent a signal that may have foreclosed the 
developing externalized aggression. And then Russia retaliated 
for those actions by banning 13 Canadian parliamentary leaders, 
including Member of Parliament Chrystia Freeland, who was later 
to become minister of foreign affairs, and myself, with respect 
to the Government [of Canada].
    So I might add parenthetically that 12 of the 13 who were 
banned were all those who had taken a leadership role in the 
Canadian Parliament, in some level, in seeking sanctions for 
Russia's aggression in Crimea and Ukraine. I can say that I had 
not been as initiatory as they were, or as vocal as they were. 
So the Russians were asked, well, why did you ban Cotler? He 
wasn't as vocal anywhere as near as the other 12. And they 
said, oh, with Cotler, we have a long history. It goes back to 
1979, when he was expelled for defending Russian dissidents. 
And the banning continued for another decade, et cetera. So 
Putin's Russia has a long memory, going back even to earlier 
times.
    2015 witnessed a number of dramatic developments, which 
finally began to move us in the direction of legislation. In 
February 2015, Boris Nemtsov was murdered, right outside the 
Kremlin. This outrageous act provoked such a response in 
Canada, both within and without the Parliament, that in March 
2015 the House unanimously adopted my motion calling for global 
justice for Sergei Magnitsky legislation--again, inspired by 
parallel developments here in the U.S. And I must say, in my 
remarks in the House at the time I said I could feel the spirit 
and inspiration of Boris Nemtsov when we unanimously adopted 
that motion.
    In June, I introduced again a private member bill, this 
time global justice for Sergei Magnitsky legislation. The 
conservative government finally agreed to adopt this 
legislation. The process was adjourned, however, by the calling 
of an election in the summer of 2015. In the course of the 
election, all three parties committed themselves to adopt such 
legislation. The liberal party won the election, but the 
momentum for such legislation was stalled. References were made 
to the fact that we have sufficient existing sanctioning 
authority under our legislation, and that we didn't need a new 
legislation. That was the position of the then-Foreign Minister 
Stephane Dion. And that it might prejudice our, quote-unquote, 
``re-engagement'' with Russia at the time.
    Accordingly, we reignited the parliamentary process, now in 
both houses, and again with the witness testimony of Bill 
Browder, Vladimir Kara-Murza, Anna Nemtsova--Boris Nemtsov's 
daughter--and Garry Kasparov. A number of developing factors 
now underpinned that momentum, but I'll just mention two of 
them. A unanimous report from the foreign affairs committee 
calling for global justice for Sergei Magnitsky legislation. I 
have here the cover of the report\1\ that came out of the 
parliamentary foreign affairs committee, as it had a picture of 
Sergei Magnitsky on the cover, to denote the legislation of 
Sergei Magnitsky's case and cause for the legislation.
---------------------------------------------------------------------------
    \1\  The full report can be accessed at: http://www.ourcommons.ca/
Content/Committee/421/FAAE/Reports/RP8852462/faaerp07/faaerp07-e.pdf
---------------------------------------------------------------------------
    As well----
    Mr. Wicker. Sir, that is a report from the Canadian 
Parliament?
    Mr. Cotler. Correct. Foreign affairs committee, unanimous 
report.
    Mr. Wicker. Let's go ahead and put that in the record at 
this point. Without objection, that'll be done. You may 
proceed.
    Mr. Cotler. I also might remark, the leadership of the 
newly appointed foreign minister Chrystia Freeland, who in May 
2017 announced government support for Sergei Magnitsky 
legislation, following upon the report from the foreign affairs 
committee subsequent hearings as well. All of which led to a 
succession of Russian threats, emanating both from the Russian 
embassy in Canada and Putin himself, warning Canadian 
parliamentarians against adoption of what he called this toxic 
legislation, and the terrible impact it would have on Canada-
Russia relations.
    Fortunately, we had a Raoul Wallenberg all-party 
parliamentary caucus in Canada we initiated in 2016. And on the 
eve of the two houses voting on Sergei Magnitsky legislation, 
we called for not only the adoption of this legislation, but to 
make that adoption unanimous in both houses of parliament, so 
that we would send a message to Putin's Russia that we will not 
be intimidated and we will not be deterred by such threats. And 
so the legislation, and Bill Browder mentioned, was passed 
unanimously, 277 to zero, and received royal assent on the same 
day.
    Let me now move to the second part of my comments, and very 
quickly, and that is the objectives and purposes of such 
legislation, the global justice for Sergei Magnitsky 
legislation in general, which you've now adopted here as well 
as that of the earlier justice for Sergei Magnitsky 
legislation.
    First, to combat the persistent and pervasive culture of 
corruption, criminality, and impunity, and the externalized 
aggression abroad, of which Putin's Russia is a case study.
    Second, to deter, thereby, other prospective violators, 
because if we indulge that culture of impunity in Russia or 
elsewhere, we only embolden the human rights violators. But if 
we sanction these violators, we can deter others because they 
know there's a price to be paid for their corruption and 
criminality.
    Third, to make the pursuit of international justice a 
priority and a pillar of our human rights policy, both domestic 
and international. And I'm speaking both of the United States 
and Canada, and linking up with what Bill Browder said in that 
regard.
    Fourth, to uphold the rule of law and justice and 
accountability in our own territories through the visa bans, 
asset seizures and the like. Recent evidence of how Magnitsky 
assets have been laundered in Canada is but one case study of 
the importance of having such comprehensive legislation.
    Also, as it was argued yet again in the Russian threats 
that we are interfering with the sovereignty of Russia, our 
response has been: We are not interfering with the sovereignty 
of Russia or any other country. What we are seeking to do is to 
protect our own sovereignty, our own rule of law, our own 
economy, and exclude these would-be perpetrators from 
exercising what is, in effect, a privilege and not a right to 
enter our country.
    Fifth, to protect Canadian businesses operating abroad. 
Magnitsky not only uncovered the largest corporate tax fraud in 
Russian history, but it was perpetrated against a U.K.-based 
entity, headed by Bill Browder, Hermitage Capital. So that this 
type of legislation would protect not only the integrity of 
commerce in Canada, but also our Canadian businessmen operating 
abroad.
    Final point here: It's important to appreciate that this 
legislation targets human rights violators and not governments, 
targeting individuals and not governments themselves. Finally, 
and I think most importantly, it tells the human rights 
defenders, the Magnitskys of today, that they are not alone, 
that we stand in solidarity with them, that we will not relent 
in our pursuit of justice for them, and that we will undertake 
our international responsibilities in the pursuit of justice 
and the combatting of the cultures of criminality and 
corruption, let alone, in particular, the impunity.
    And where do we go from here? Closing remarks. Number one, 
and I associate myself with all the initiatives that were 
suggested by Bill Browder in that regard. Third, and also 
connected with what he said, we need to internationalize the 
global justice for Sergei Magnitsky movement and secure as many 
participating countries as possible. As Boris Nemtsov put it: 
The adoption of Magnitsky legislation by EU countries would be 
a serious blow to the criminal regime in Russia. And as he 
added, if you want to protect yourself against Putin's thieves, 
murders, and corrupt officials--speaking to the European 
Parliament, you must adopt the Magnitsky law.
    Fourth, as Bill put it, three of the G-7 countries have now 
adopted Magnitsky legislation. Canada assumes the presidency of 
the 
G-7. And the next G-7 meeting will be held in Quebec. We should 
seek to mobilize for such legislation in the four remaining G-7 
countries, Germany, France, Italy, and Japan. And here, the 
United States has a distinguished and distinguishable role to 
play.
    Five, we need to make the OSCE a focal point of our 
advocacy for justice for Sergei Magnitsky legislation, anchored 
in our commitments under the Helsinki Final Act. We have not 
only a right, but a responsibility to hold Russia, an OSCE 
State, accountable for its standing violations of its 
commitments under the Helsinki Final Act.
    Sixth, the assault on human rights and the rule of law, and 
the imprisonment of human rights defenders in Russia, is a 
standing violation as well of Principle Seven of the Helsinki 
Final Act, the right of people to know and act upon their 
rights. And here, too, Russia must be accountable to free its 
political prisoners. Finally, from a global perspective, global 
justice for Sergei Magnitsky legislation can help us combat the 
resurgent global authoritarianism that we are witnessing today, 
and the culture of impunity that underpins it, by sanctioning 
human rights violators, be they in Russia, Venezuela, or South 
Sudan--which is something that Canada has done in the immediate 
aftermath of adopting our legislation--on October 18th we 
sanctioned 30 senior Russian violators, 19 Venezuelan officials 
including President Maduro, and three from South Sudan.
    Mr. Chairman, we also--when I hear Bill Browder's 
testimony, need to reform the Interpol regime so that it is not 
used and abused in the way it has been. And our own minister of 
public safety, Ralph Goodale, in Canada, has announced that he 
is prepared to take the lead, in concert with others, for that 
purpose. At the end of the day, in adopting Magnitsky 
legislation, we make a statement not only of what we must do, 
but also of who we are.
    Thank you, Mr. Chairman.
    Mr. Wicker. Thank you very much. And thank you for your 
compelling testimony, to all three of you, and also for your 
courage. I know it's taken quite a bit.
    Mr. Browder, just to follow up on that last point, there's 
no one in the leadership of Interpol that seriously is taking 
the position of the Russians, that you should be detained or 
arrested, is that correct? Is there a debate within Interpol?
    Mr. Browder. Well, I'm not a member of Interpol. Russia is 
a member of Interpol. [Laughs.] And so they're accountable to 
their members, not to me, not to Irwin, not to Garry. And as 
such, as a member, they've been an errant member of Interpol. 
Interpol has rules that says they shouldn't be doing things 
like pursuing people for political purposes. And those rules 
have been upheld. Having said that, the Russians applied for me 
in 2013. Interpol rejected it.
    They came back three weeks later. Russia applied, they 
rejected it again. They came back in 2014 and applied. Interpol 
rejected it again. And then, strangely, Interpol has allowed 
twice in this year, once just as I was coming to the United 
States to testify in front of the Senate Judiciary Committee 
and once right after the Canadian Magnitsky Act was passed, 
where they put me on the Interpol list, and I was on the 
Interpol list, accepted for some period of time.
    And so there may be people in Interpol who are 
appropriately behaving. Having said that, Interpol is being 
abused wildly. And I'm not the only one. There are many other 
people who have suffered multiple attacks by Interpol where 
it's clearly been politically motivated. And so Interpol 
obviously needs to clean up their act if they're supposed to be 
a crime fighting organization, not a criminal organization, or 
an organization acting on behalf of criminals. And so there's 
serious reform that needs to be done.
    Mr. Wicker. How transparent is the governing body of 
Interpol?
    Mr. Browder. Interpol is a black box. Interpol is also 
very, unfortunately, unjudicially reviewable, which means that 
if somebody puts an arrest warrant out for you in any country, 
probably even North Korea, you have to go to a court--maybe not 
North Korea--but most countries you have to go to a court or 
the officials have to go to a court to get an arrest warrant. 
Interpol, there's no court. And you can't go to a court to 
appeal an Interpol red notice. So if they decide or they don't 
decide, there's no consequence. You can't sue them. You can't 
judicially review them. You can't do anything. And therefore, 
it continues to be a black box. The United States is probably 
the single largest contributor to Interpol. And the United 
States can fix Interpol, based on its financial contribution.
    Mr. Wicker. I know others are anxious to ask questions. Let 
me give you an opportunity to clear up something. And I may 
have misspoken in my opening statement. Mr. Kasparov says 
follow the money. Mr. Cotler says something about laundering. 
How are you doing tracing the $230 million? And that really was 
stolen from the Russian people, was it not?
    Mr. Browder. That's correct.
    Mr. Wicker. OK, if you'd clear that up. Because I didn't 
want to imply that you, Bill Browder, lost $230 million. It was 
a fraudulent, ridiculous tax refund that raided the treasury 
that belonged to the Russian people. Would you comment on that?
    Mr. Browder. That's a very important distinction. We did 
not lose any money in this fraud. The Russian people lost $230 
million, which is what makes it so egregious. So----
    Mr. Wicker. A very readily responded to request for a big 
refund on the Treasury.
    Mr. Browder. On Christmas Eve 2007. The largest tax refund 
in Russian history. Granted without any questions asked.
    Mr. Wicker. Right. Right. How we doing tracing where that 
money went?
    Mr. Browder. Well, we've traced all the money. We found all 
the money. And the money has come to a lot of different 
countries. It's come to the United States. The Department of 
Justice froze $14 million that belonged to a company owned by 
the son of a Russian Government official called Prevezon. The 
money has gone to Switzerland. $20 million went to Switzerland. 
Prevezon's money and money belonging to the husband of the tax 
official who refunded it. Money went to the Netherlands. More 
than 3 million euros has been frozen by the Dutch authorities 
that belongs to Prevezon, again. Money went to France. About $8 
million has been frozen in France. And there are criminal 
investigations now opened up in a dozen different countries. 
And I've learned a tremendous amount about money laundering in 
the last eight years, working with law enforcement, tracing 
this money, and helping law enforcement prosecute the people.
    And this is where I become so agitated about the whole 
concept of cryptocurrencies and Bitcoin, because the reason 
we've been able to trace the $230 million is because when you 
send dollars or you send euros, in the dollars case, it goes 
through the Fed wire system. And there's a permanent trail of 
every movement of those dollars. And a permanent trail that 
goes back to banks and people and know your customer due 
diligence and authorities and regulators, et cetera. And that 
allows law enforcement and the good guys to get the bad guys, 
and stop the criminals. With Bitcoin and cryptocurrencies 
that's not possible. And two days ago one of Putin's economic 
advisors, Sergey Glazyev, publicly promoted the idea of 
cryptocurrencies to work around sanctions. And we really need 
to respond to this quickly.
    We didn't respond to Facebook and Twitter quickly enough so 
that the Russians could do all sorts of crazy stuff in 
manipulating politics all over the world and that. Technology 
moved quicker than regulation. We're going to be in the exact 
same situation with cryptocurrencies unless we get on it very 
quickly.
    Mr. Wicker. Thank you.
    Mr. Cohen.

  HON. STEVEN COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cohen. Thank you, Chairman.
    I'm just in awe to be in front of you three gentlemen. This 
is probably as distinguished a panel as I've seen in my 11 
years in Congress. You've all had amazing lives, shown great 
courage, and changed the world for the better in a way that we 
all should be doing to advance freedoms and stand up for 
justice.
    The Magnitsky law has obviously been effective, in that it 
is what has caused Mr. Putin and his government to take over 
and interfere with our elections. That is what they, I believe, 
see as a way to get the Magnitsky law repealed. They allegedly 
and apparently, and I believe, engaged in that meeting at Trump 
Tower for the purpose of getting relief on Magnitsky. It was 
not anything to do with adoption.
    Do any of you have any information that you can give us 
concerning Russian involvement with our President, with our 
election processes, or with other information that we need to 
know? This is not a chess game. [Laughter.]
    Mr. Kasparov. First of all, I'd like just, Mr. Chairman, to 
make one comment, following Bill's words about Interpol. As a 
chairman of Human Rights Foundation, I've been dealing 
regularly with complaints from dissidents from many countries 
when authoritarian regimes have been abusing Interpol red 
notice to prosecute political leaders living in exile. This is 
a common practice. And it's not just only Russia. It's 
something inherently wrong with Interpol, which as Bill 
described is a black box. You can only see your name appearing 
or this red notice on internet, on a list, but you are not 
privy to any legal process, how they then appear there and what 
is in a notice sent by the government.
    Unfortunately, quite a few authoritarian regimes are 
enjoying the rights to issue red notices. And if not for Bill's 
notoriety and his involvement in Magnitsky Act, he could be in 
real trouble. And thanks to the United States Senate and the 
House for defending him and removing him from the list. But 
many other people without the same prominence, they are just 
suffering. And there's very little can be done unless Interpol 
is faced with serious actions, starting here, to stop 
accommodating world dictators.
    Now, regarding this involvement, there's certain things I 
can confirm from my own personal experience. For instance, I've 
no doubt, as someone who was raised in the Soviet Union and is 
familiar with the way the Communist system and KGB work, that 
this type of operation of meddling in the U.S. elections could 
be authorized only by Vladimir Putin. There's no way that it 
just could be done by some low-key operators. Clearly, the 
Magnitsky Act was one of the elements of this collusion and 
meddling. And the joke is that the word ``adoption'' now is 
used like a code name for sanctions and lifting sanctions.
    And the Magnitsky law is viewed by Putin's regime as the 
core problem that started all other sanctions. So it's a top 
priority of Russian Government. And you could see the 
activities not only here, but across Europe to prevent other 
countries from entering the same legislation. And, again, while 
I cannot say anything with 100 percent confidence, but from my 
personal experience I believe that the Russian interference 
here had a clear goal of helping Putin regime out of the 
sanctions regime.
    Mr. Cohen. Anybody else have anything to offer? Mr. 
Browder?
    Mr. Browder. So, looking at this situation, Vladimir Putin, 
he runs a hundred operations with the expectation that 99 of 
them will fail. In terms of meddling with U.S. elections, 
meddling with British elections, meddling with Catalonian 
independence, meddling with German elections, meddling with 
French elections, it's a matter of fact that they do that. And 
the U.S. intelligence agencies have all confirmed that. The 
French intelligence agencies confirm that they were meddling in 
the French elections. It's now been confirmed that they were 
meddling in the Brexit debate.
    And so there's no question about what Putin was doing. And 
the only question, which I don't have an answer to, is whether 
he was doing it on his own volition, or whether he was doing it 
in some type of agreement with the Trump administration. I have 
no evidence to argue one way or another on that second point, 
but I'm very satisfied that there is a credible law enforcement 
team put together that will answer that question, with 100 
times the information that I have to be able to make that 
judgement.
    Mr. Cohen. Thank you, sir.
    Mr. Cotler----
    Mr. Wicker. Thank you.
    Ms. Moore.
    Oh, Mr. Cotler, would you just respond.
    Mr. Cotler. Yes, just very briefly, that in November, a 
Russian TV show featured Russian lawyer Natalia Veselnitskaya, 
with respect to the charges being brought against Bill Browder. 
This is the same person who, in a June 2016 meeting at Trump 
Tower in New York City with Donald Trump, Jr., at the time when 
it first came to light it appeared--and if you look at the news 
reports at the time--that all this was in relation to a Russian 
Government effort to aid Donald Trump's campaign by giving 
information that could be used against Hillary Clinton. 
However, it subsequently emerged that the real reason at the 
time was in order to bring about the repeal of the Magnitsky 
sanctions.
    So one could see that even the interference in this 
American election had as its objective not only, if you will, 
matters relating to the election of Donald Trump against 
Hillary Clinton, but whoever was elected, to bring about the 
repeal of the Magnitsky sanctions. And in fact, right after 
President Putin was elected, back in 2012, his first foreign 
policy statement at the time addressed the issue of the odious 
Magnitsky sanctions.
    So this is something that is top of mind and policy with 
regard to Putin's Russia, to the point where it's not only a 
case of interfering in elections, but it is also a brutal case 
of targeting the heroes of this movement. And in terms of not 
only the murder of Sergei Magnitsky, but Boris Nemtsov, who was 
the leading campaigner for justice for Sergei Magnitsky 
legislation internationally. And also, I believe, paid for it 
with his life. Vladimir Kara-Murza, who came before our foreign 
affairs subcommittee on human rights, testified, went back to 
Russia, was poisoned, almost died. Came back later after he had 
recovered, testified before our committee again, went back to 
Russia, was poisoned again and almost died.
    You see the clear linkages here with regard to his 
testimony and then his poisoning. The death threats that have 
been received by my colleagues on this panel, the murder of 
witnesses related to subsequent proceedings regarding justice 
for Sergei Magnitsky legislation elsewhere, or lawyers 
connected with it. What you have here is a pattern of 
criminality and coverup that also must be seen in relation to 
the pattern of corruption and the pattern of interference in 
elections and the like.
    Mr. Cohen. I have votes, so I have to leave. But I take my 
hat off to you. [Doffs hat.] And I would stay for the remainder 
of your testimony if I wouldn't be scolded by my leader.
    Mr. Wicker. Well, Mr. Cohen, you tell them that they need 
to hold that vote open for Ms. Moore, because she's going to 
have an opportunity to ask her questions. So do what you can 
with the speaker.
    Ms. Moore.

   HON. GWEN MOORE, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Ms. Moore. Thank you so much, Senator Wicker.
    And I just want to thank the panelists for being so brave. 
This is like something straight out of a spy novel. You can't 
make this stuff up.
    I'm going to start out by asking a question--I'm 
embarrassed because I perhaps should know the answer to this. 
Mr. Browder, you say that there are 282 persons that should be 
on this Magnitsky list, and only 35 of them have been on the 
list, and that every December it's updated. Do we know yet if 
that list has been upgraded?
    Mr. Browder. You shouldn't be embarrassed to ask the 
question, because I'm asking the same question myself. 
[Laughter.] So every year in December the list is added to. And 
every year in December it has been added to. We're now in 
December and it should be added to.
    Ms. Moore. Is this a U.S. Department of Justice's task?
    Mr. Browder. This is the U.S. State Department and the U.S. 
Treasury Department. It will be published by the Treasury 
Department. It has been prepared together between the State and 
Treasury Department. They are the ones who have been delegated 
the responsibility to do this, and they're the ones who are 
supposed to do this. And I'm keeping my fingers crossed and 
hoping that they do do this, and that there's a very robust 
list that come out.
    Ms. Moore. Well, I think the Treasury Department has been a 
little busy lately. But having said that, do we know whether or 
not--this is the first year of a new administration, and a new 
Treasury Department and State Department. Have we had any 
indication in our communications--perhaps this is to Senator 
Wicker--that there's been an ability to compartmentalize 
enforcing the Magnitsky Act, and the President's disbelief, 
essentially, that the Russians interfered with our elections? 
Has there been any evidence that compartmentalization has 
happened--that we've been able to accomplish that?
    Mr. Browder. We will only know----
    Ms. Moore. When the list comes out.
    Mr. Browder. It's a very pregnant moment. Either the list 
will be published, or no list will be published--and each 
action will have a greater significance than just that list.
    Ms. Moore. I see. OK. Mr. Kasparov, you wrote a book, 
``Winter is Coming,'' and I guess you indicated that there's a 
new authoritarian playbook, and that previous totalitarian 
regimes have learned and upped their game. So can you just 
briefly share with us the evidence of those new tactics, what 
you think we ought to be able to do and perhaps what you think 
we can do about protecting the Voice of America and Radio 
Liberty.
    Mr. Kasparov. Just following your first question, I can add 
that from our observations this year the State Department was 
much less active than before. And maybe we'll see the sanctions 
list, but so far we don't have the same kind of activities that 
typically have been cooked within State Department, regarding 
Magnitsky law and other sanctions.
    Now, speaking about new tactics, as a matter of fact, we 
saw it many years ago in Russia. And we have to give credit to 
Putin and his KGB cronies for changing the old-fashioned 
propaganda way of getting the story. Back in the Soviet days, 
they had a story to sell, the ideology. And it's always a 
problem because you have many arguments. Selling something 
requires power of conviction. And also, people may disagree. 
Putin's concept is different. It's not one story to sell, but 
it's basically telling you the truth is relative.
    And they discovered this algorithm I think back in 2004-
2005, when they realized that they had to deal with the growing 
influence of the internet in Russia. And there were two ways. 
One, you followed China and built a firewall. They didn't like 
it. and so they've moved into the sort of gray area, just using 
KGB tactics, creating some fake websites. They all presented 
some stories. Like, 90 percent of the true stories, but each 
site carried a piece that was part of the combined Kremlin 
message. They realized that if you have some websites that are 
allowed to criticize Putin and talking about corruption, these 
sites can defend KGB--telling that KBG involvement in apartment 
bombing in 1999 was a fake, and there's more credibility there.
    By using these tactics in Russia, they saw this success and 
they moved to so-called near abroad, the former Soviet 
republics. Estonia was the first to be attacked. And then they 
moved to Europe. So when they actually entered the United 
States, this is the meddling in U.S. elections; they already 
had more than a decade of the experience of creating these fake 
websites, fake industry as an institution, the troll factories 
that have been in operation for more than a decade. And 
unfortunately, this country and the European Union paid more 
attention--or, actually, preferred to ignore the fact that 
Russia has been building its presence in media around the free 
world.
    For instance, we look at the last elections in Germany. We 
have to give Putin credit for building Alternative for Germany, 
the Neo-Nazi party, almost from scratch by using Russian-German 
community and having the German-speaking media. And as a 
result, you have 94 Neo-Nazis in German Bundestag. So Putin 
just recognizes that the free world offered him many 
opportunities to play these games. And it's fairly cheap. You 
don't have to spend a lot of money for this good intervention. 
And unfortunately, it had worked.
    Ms. Moore. I thank you so much. And I sure feel anxious 
about the votes, but I just want to comment: We got about a 
half million sort of fake responses about net neutrality. It's 
a big deal with regard to whether or not the internet will have 
faster or slower lanes based on commercial interests. And 
they've been all tracked back to Russia. So this is a real 
threat at every level. I do thank you for your appearance. And 
I'm sorry that I have to leave so soon. But I leave you in very 
capable hands.
    Mr. Wicker. Thank you, Ms. Moore.
    And just in response, the State Department informs the 
Commission that the Magnitsky and Global Magnitsky lists will 
be published in the next week or two. So we'll see. And perhaps 
members of the State Department, staff members, are listening, 
even as we speak.
    Senator Whitehouse.

 HON. SHELDON WHITEHOUSE, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Whitehouse. Thank you. Thank you, Chairman.
    And thank you to the panel for being here. You have all 
shown--indeed, exemplify--significant courage. And we are 
grateful to you.
    I would like to propose to all of you the following thesis, 
and ask your reaction to it. The thesis has one broad element 
and a narrower element.
    The broad element is that the true clash of civilizations 
in the world today is between the rule of law and countries 
that are governed by kleptocracy, autocracy, and criminality, 
that much of the evil that threatens our rule-of-law countries 
arises out of kleptocracy, autocracy, and criminality. And that 
consequentially it is a strategic imperative for the rule-of-
law countries to address the underlying problem of kleptocrats, 
autocrats, and thieves. That's the broad part of the thesis.
    The narrower part of the thesis is that the kleptocrats, 
tyrants and thieves ultimately seek sanctuary for their 
families, their assets, and themselves in rule-of-law 
countries. If you keep your ill-gotten gains in kleptocracy, 
autocratic, and corrupt countries, you're just waiting for the 
next bigger thief to come and steal what you have stolen. And 
the quality of life generally sucks. So they need to get out in 
order to succeed at their game. And here's where it gets a 
little bit smelly, because our laws, our lawyers, and other 
professionals provide and facilitate that very sanctuary. And 
the most prominent feature of that sanctuary is probably 
allowing shell and shelf corporations to obscure the identity 
of the kleptocrats, the autocrats, and the thieves so that law 
enforcement, the press, and others can't follow the 
connections.
    I'll close my thesis by narrowing it right to this 
particular act, because it strikes me that shell and shelf 
corporations are a very useful device for the corrupt 
individuals specifically named in the Magnitsky Act to dodge 
around and find sanctuary for their assets, notwithstanding the 
law, by going through often sequential series of shell 
corporations so that ultimately it all turns up in the name of 
Wonderful Company, LLC someplace and, again, enjoying the 
protection of rule of law.
    I'd love to have each of you react to that thesis at 
whatever level you choose.
    Mr. Browder, you want to go first?
    Mr. Browder. I could have given your speech just now. I 
agree with it 100 percent. The entire basis for the Magnitsky 
Act, inspiration for the Magnitsky Act, is exactly what you've 
just described, which is that these terrible people commit 
terrible crimes in their own countries. But they're so afraid 
that their money will be stolen, they want to keep it in 
countries that have a rule of law, that have property rights, 
and have institutions where they can be physically safe.
    Mr. Whitehouse. So the Magnitsky individuals, the ones 
identified in the law, are really the tip of a much, much 
bigger iceberg of kleptocracy and autocracy out there. And in 
the same manner that we have paid attention to these 
individuals, it would be wise for us as a nation to broaden our 
reach and more systematically address this problem of providing 
sanctuary for international evildoers.
    Mr. Browder. Indeed. I would argue that we've come up with 
a good concept. But the devil is always in the details, and the 
devil is always within implementation. So as you've pointed 
out, people can obscure their ownership. They can do so with 
offshore companies, with nominees who don't even know they're 
nominees in offshore companies, and even in America, Canada, 
and various places like that. There are law firms, the 
enablers, who are actively assisting them, earning big fees 
with no consequences. And----
    Mr. Whitehouse. As a lawyer, let me point out that there 
are also accountants, realtors, yacht brokers, and various 
other professionals involved in these transactions as well. So, 
yes, the lawyers deserve some blame, but not all of it.
    Mr. Browder. I don't want to single out the lawyers, but 
the lawyers have played a big role, no doubt.
    Mr. Whitehouse. They have played a big role and a nefarious 
one.
    Mr. Browder. And I would actually say something that's 
quite controversial, and we've debated it here in the United 
States. We've debated it in Canada. We've debated it in the 
United Kingdom, as to what should be in the law. The law 
currently applies to the people who commit the crimes. If you 
really want to affect these people, you should include their 
family members. If somebody knows that not only will their 
freedoms be curtailed, but their family members will not be 
able to send their kids to Ivy League schools, to boarding 
schools in England. They won't be able to send their parents 
for medical treatment at Harley Street and at the Cleveland 
Clinic, all of a sudden, there's a totally different 
calculation. And that would actually seriously raise the 
effectiveness of this whole piece of legislation.
    Mr. Whitehouse. Mr. Kasparov.
    Mr. Kasparov. Yes, I couldn't agree more with your both 
broad and narrow thesis. Actually, we're talking about a 
system. It's $230 million is the tip of the iceberg, maybe it's 
a drop in the sea, because thanks to Bill Browder, and his 
efforts, you know, you could discover every penny of this 230 
million [dollars]. But we were probably talking about an amount 
close to $1 trillion that has been spread around. So using 
similar schemes of looting money in Russia and parking them, 
not in China, not in Venezuela, not in Iran, but in this 
country, in the United Kingdom, in France, and you name it--in 
countries where, as you said, this money is protected by the 
rule of law.
    And Putin realized that the Magnitsky law was an imminent 
threat to the very foundation of his power, which was based on 
a guarantee for all members of the gang to loot Russia, to 
steal money there, and to place it safely anywhere in the world 
they choose. And by the mafia rule, you have to offer full 
protection to the last hitman in exchange for absolute loyalty. 
That's why when I heard the comments from some of the opponents 
of Magnitsky law saying, ``Oh, they are just, you know, second 
or third tier of officials, why should we pay attention?''
    It's about principle. Because the moment that one person is 
not protected anymore stealing money in Russia, and having them 
also protected in the United States or in Europe, on the rule 
of law, the whole system will collapse. And that's why Putin 
was so eager, and is spending massive resources, to repeal 
Magnitsky law and prevent countries, like with open threats to 
Canadian Parliament, just it's unheard. The way the Russian 
Parliament and Putin himself actively trying to stop Canadians 
blackballing them with all sorts of retaliations.
    And as you said, it's the modern autocrats are working, 
because they want to enjoy the luxuries of the world that they 
are fighting with, for propaganda purposes. And that's why 
they're far more vulnerable than the Communist regime. And I've 
been saying for a long time, use not tanks but banks. And they 
found a way of corrupting Western financial, political, and 
business circles, by doing it for years. And we have to give 
Putin credit for just being quite savvy in just finding the 
soft spots.
    And finally, I could say that for those who have been 
arguing about his openness, saying, oh, if we have this 
engagement it will help to sort of lift Russian standards to 
the world's accepted rules and laws and regulations. Actually, 
it works the other way around. It's not that Russia upgraded 
its rules and regulations, but it corrupted the free world that 
was absolutely open and defenseless against the flood of these 
hundreds of billions of dollars of money stolen in Russia. And 
I believe the system has been in place for many other 
authoritarian regimes that followed Putin's model.
    Mr. Whitehouse. Mr. Cotler, final thoughts to add?
    Mr. Cotler. Yes, Senator. I appreciate your 
characterization of the clash of civilizations in terms of the 
rule of law, and the autocracy, kleptocracy, and criminality, 
and that it's a strategic imperative at this point to combat 
them. I want to say that I think this is being enhanced, both 
the threat and the imperative; by this resurgent global 
authoritarianism; by the illiberal populism; and by something 
we haven't spoken of, but I think is becoming particularly 
worrisome, and that's of democracies in retreat or the idea of 
democracy, the institutions of democracy being increasingly 
questioned even in democratic countries, aided and augmented by 
the post-truth universe.
    And so I just want to bring to your attention something 
that I think you know but maybe should be part of our overall 
internationalization of advocacy, and that is, recently in 
Prague, in October--under the auspices of Prague 2000, which 
are sort of the heirs of Vaclav Havel's intellectual and moral 
initiatives--Europeans and Americans and others gathered 
together to launch the Prague Declaration [sic; Appeal] for 
Democratic Renewal, and this Prague declaration seeks to 
address, in a way, what you have been speaking of, Senator, and 
seeks to mobilize democracies, at this point, in a coalition 
for democratic renewal in order to reaffirm the values, the 
ideas, the institutions of democracy in democratic countries. 
And I think this is something that we may be able to factor 
into our work here with regard to the Helsinki Final Act, 
Justice for Sergei Magnitsky case and cause and the like.
    Mr. Whitehouse. Well, thank you for your leadership.
    I've taken a lot of time, Mr. Chairman. Let me just, in 
closing, thank not only you and the Helsinki Commission for the 
work that is being done in this area, but I want to recognize 
the Center for Strategic and International Studies and the 
Kremlin Playbook document that they put together under the 
leadership of Heather Conley. I want to recognize the Atlantic 
Council's work and the Kremlin Trojan Horse document that they 
put together. I want to recognize the Hudson Institute, whose 
Kleptocracy Initiative is doing powerful work in this area. So 
there are a number of important voices that are joining 
together, and I hope we can take advantage of that broad 
support to continue to take action against the imperiling cabal 
of kleptocracy, autocracy, and crime that is a strategic threat 
to our country.
    Thank you, Chairman.
    Mr. Wicker. Thank you for that very valuable line of 
questioning, Senator Whitehouse, and let me just follow up--and 
it may be that Senator Whitehouse is aware of this or not--
there's a man named Paul Ostling, a former COO of Ernst & 
Young, who blew the whistle on a company in Russia that had 
powerful friends in the Kremlin. The Russians are now using the 
American legal system to commence litigation against Mr. 
Ostling, a process which has substantially depleted his own 
fortunes.
    I don't know if any of you are familiar with this, but I am 
convinced that that is actually happening. So this would be a 
case in which American law firms are being hired by Russians to 
harass people who legitimately came forward and blew the 
whistle, much as you did, Mr. Browder, and much as Sergei 
Magnitsky did.
    Are any of you aware of this, and is this happening writ 
large, or was it only to an isolated few like Mr. Ostling?
    Mr. Browder. I haven't heard the story, but I just wrote 
down his name so I can do some research, but more generally, 
Putin interferes using our freedom of the press, he interferes 
using democracy, he interferes using the internet, and he also 
interferes abusing legal processes--we've talked about Interpol 
and so on--but they also interfere very aggressively using 
American law firms.
    And Senator Whitehouse, no offense to lawyers, but there 
are a lot of sleazy lawyers who are actively making huge 
amounts of money--American lawyers ripping human rights 
activists and others limb from limb using the American legal 
process. And I've been on the other side of this where I had a 
lawyer who worked for me helping to track down the stolen money 
from the Magnitsky crime. His name was John Moscow, a former 
prosecutor from BakerHostetler law firm, and we then found the 
money, presented it to the Department of Justice, and he 
switched sides and then started from representing the victims 
to representing the perpetrators to make tens of millions of 
dollars. He was disqualified by the Second Circuit after a year 
and half, but he was ready to basically throw out his entire 
integrity as a lawyer to work for the Russian Government to 
terrorize a whistleblower that he helped. So there's a lot of 
bad guys out there doing this stuff. I'm going to look into Mr. 
Ostling because I think that sounds like an important story.
    Mr. Wicker. Mr. Cotler, are the signatories to the Prague 
declaration current members of the government or former members 
of the governing majority?
    Mr. Cotler. The signatories to the Prague declaration 
include both present and former parliamentarians----
    Mr. Wicker. So it's bipartisan.
    Mr. Cotler. It's utterly bipartisan. I might add that the 
National Endowment for Democracy here, under the leadership of 
Carl Gershman, was very much engaged in the drafting of the 
Prague declaration, and you've got congresspeople, senators, 
Canadian parliamentarians, Europeans, artists, intellectuals, 
et cetera. It's an attempt to mobilize a movement of an 
international character for the renewal of democracy and for 
the revival of the import and impact of the democratic idea.
    Mr. Wicker. Thank you.
    Mr. Kasparov, Natan Sharansky once said, a country that 
does not respect the rights of its own people will not respect 
the rights of its neighbors. And, in essence, we're all 
neighbors in this global economy we have.
    So I would ask you, in that regard, what's it to somebody 
in Providence, Rhode Island, or Tupelo, Mississippi, or 
Milwaukee, Wisconsin, that we're so interested in this 
Magnitsky List? Why should someone in Memphis approve of us 
shining the light of day on this issue? What's their stake in 
this?
    Mr. Kasparov. By the way, I'm one of the signatories of 
Prague's declaration, so--[laughs]--that was mentioned.
    Mr. Wicker. I think it enhances the declaration.
    Mr. Kasparov. Yes, yes. It goes back to my statement--and 
I've been saying it for many years, and Boris Nemtsov and many 
others repeated it as well--that Putin was our problem but 
eventually it would be everybody's problem. And Putin has no 
other choice but to create chaos, spread chaos. Russian economy 
is not in good shape, and he doesn't believe it will ever offer 
him an excuse for staying in power indefinitely.
    So if you listen to Russian talk shows, you will not hear 
anything about Russia. It's all about Ukraine, Syria, of course 
United States. It is 24/7 anti-American bashing because America 
is enemy that Putin wants to oppose, even virtually, to show 
his strengths, to expose the aura of invincibility. And, for 
him, meddling in American election was just part of the game. 
He will never stop doing that because he has nothing else to 
offer to people in Russia.
    His domestic propaganda is filled with his geopolitical 
adventures, and if you think that he will leave you alone, no, 
because he has to prove every day that he is invincible. That's 
the rule of the mafia. The moment he looks weak, he will be 
challenged, and Putin instinctively knows this rule, so he 
cannot project any weakness, and the best way to pretend he is 
strong is to defy the biggest power in the world.
    And these latest interferences just demonstrate it--not 
only in America, in Europe as well--that he would do it, and he 
will always look for soft spots. He is a great opportunist. He 
saw opportunity in Syria, he went on, and he just carpet-bombed 
Aleppo, pushing refugees in Europe to create political crisis 
there and help alt-right that always wanted to leave sanctions. 
So he's looking at this big map as an opportunity to spread 
chaos.
    And for those who think that you can find common ground 
with him, you're wrong. And Putin, he's at a point where he 
will be looking for more conflicts, and because he is the KGB 
guy and also Judo expert, he looks for an opportunity to use 
the strengths of the free world against the free world itself, 
so that's why he looks for the pillars of the free world, like 
innovations, technology, rule of law, as an element of his 
hybrid war against the free world, which gives him a purpose of 
staying in power forever.
    Mr. Wicker. I think the people who would like to have 
avoided this kleptocracy and all of the bad things in Senator 
Whitehouse's thesis, I think we missed a real opportunity in 
the early 1980s. That's my conclusion.
    Give us some hope, Mr. Kasparov--and I'll let you go first, 
and then others, also. Is there a generation out there waiting 
inside Russia to do right by the Russian people? Give us some 
hope that we're headed somewhere to a better place. I realize 
you are only 32 years old.
    Mr. Kasparov. I'm an acute optimist by nature, though I 
have to live in exile for almost five years. From history books 
I know that every dictatorship comes to an end, and the Putin-
like dictatorship is very vulnerable to geopolitical defeat. I 
could remind people about the orderly retreat of Soviet troops 
from Afghanistan in 1989. It was nothing like American stampede 
in Saigon, but the very picture of Russian troops retreating--
Soviet troops--in February 1989 sent a very powerful signal to 
Eastern Europe and to the former Soviet republics that empire 
are no longer all powerful, it's weakening. And by the end of 
the year, the Soviet Empire in Eastern Europe collapsed; in 
less than three years after the retreat from Afghanistan, the 
Soviet Union ceased to exist.
    I think that what we saw in the last year, thanks to Alexei 
Navalny and his efforts of bringing young people to the 
streets, there's a generation that is not happy, but nobody 
will challenge dictator and dictatorship if it looks strong. 
You need just to create image of weaknesses, and the moment it 
happens, I believe the change could be all of a sudden.
    I've no idea how and when Putin's regime will collapse, and 
that's bad news. The good news: Putin also doesn't know it as 
well.
    Mr. Wicker. Mr. Whitehouse, I think what I'd like to do is 
give each member of the panel, starting with Mr. Cotler, an 
opportunity to take a moment or two and summarize. But before 
that, if you have other questions, I'd recognize you for 
another round.
    Mr. Whitehouse. No, thank you. I'd be delighted to hear the 
closing statements.
    The only thing that I would do is take advantage of your 
generosity to read two sentences from our own Helsinki 
Commission report, ``Corruption in Russia: An Overview.'' One 
says: ``To avoid sanctions, Putin's cronies take advantage of 
the secrecy provided by Western offshore havens to secure 
stolen funds abroad.'' That is what we are talking about, and 
clearly, one of the offshore havens--in fact, unfortunately a 
growing offshore haven--is our own country now.
    And second: ``Any anti-corruption measures implemented in 
the West undermine Putin's kleptocracy.'' End quote. So not 
only are we, to some degree, sowing the seeds of our own 
destruction by providing secrecy for these international 
criminals, but we very much have it within our power to unwind 
that by taking anti-corruption measures, to quote our own 
report, ``implemented in the West.''
    So I applaud the work that the Helsinki Commission staff 
have done on that report. I wanted to highlight those 
particular points. I thank you for this hearing, and I am eager 
to hear the closing remarks of our witnesses.
    Mr. Wicker. Let's just ask Mr. Cotler to take a moment or 
two and make any points that haven't been made, or respond to 
anything that needs to be nailed down.
    Mr. Cotler. Well, Mr. Chairman, I might just respond to 
your words in terms of the Russian generation today. I think 
that they are legatees of great leaders, of whom Andrei 
Sakharov was the father of the modern dissident movement, and 
his words, as he put it, ``I do not know what will help the 
cause of human rights. I do know that it will not be helped by 
silence.'' Just as Elie Wiesel, great Nobel Peace laureate, 
said that the real danger is silence in the face of evil, and 
that it's our responsibility, wherever we are, to speak out and 
act against injustice. And that's what the Helsinki Final Act 
was intended to do, that's what Justice for Sergei Magnitsky 
legislation was intended to do.
    And your remarks with regard to Sharansky--I happen to have 
had the great fortune to have acted as counsel for Anatoly 
Sharansky when he was in the Soviet Union. We'd become very 
close friends. But I think his own voyage is very interesting 
in terms of an inspirational voyage.
    Sharansky was one of the three founders of the Helsinki 
monitoring groups in the former Soviet Union. It was those 
monitoring groups, founded under the Helsinki Final Act--the 
right to know and act upon one's rights--that helped bring 
about, if I can use a Marxist metaphor, the withering away of 
the former Soviet Union. They demonstrated how a few small 
people can transform the world. I think that sends a message to 
young people in Russia, but also to people here in the United 
States and Canada, wherever they may be, that acting together 
in concert on behalf of a just cause can, in fact, change the 
world.
    And I will close by saying that Vladimir Kara-Murza, when 
he testified before us and said that he believes that the 
younger generation in Russia will demonstrate that, if given 
the support of the international community in terms of 
combatting the cultures of criminality and corruption and 
impunity so that they can give expression to their ideals, 
they, too, can do what the Sharanskys did and change the 
universe. And it may be that Putin's Russia, in not too long, 
will also wither away as did previous totalitarian regimes. But 
we have to play our part in seriously and internationally 
combatting this resurgent global authoritarianism and the 
cultures of criminality, corruption and, in particular, the 
impunity that underpins it.
    Mr. Wicker. Mr. Kasparov.
    Mr. Kasparov. Very quickly--so I think that Magnitsky's Act 
gives this country and American allies around the world a 
unique opportunity to demonstrate its support for Russian 
people, to make a clear distinction between the criminal regime 
that is running Russia today, and looting Russian resources, 
and parking money in the world under the pretext of rule of 
law. It brings back the memories of very strong language used 
by Ronald Reagan condemning communist crimes, but always 
emphasizing that it's not about the people of the Soviet Union, 
who were also victims of totalitarian regime.
    I think just making this clear distinction and also sending 
a message that the money, this loot that is being parked in the 
free world, will be eventually returned to Russia to help 
Russian people to rebuild the country after the collapse of 
Putin's criminal enterprise. That will be very important, and 
hopefully it will change the mood, if not of all Russians, but 
many young people that will recognize that America and the free 
world is not fighting Russia, as Putin is trying to pretend, 
but fighting the criminals who are hurting Russia as much as 
the rest of the world.
    Mr. Wicker. Thank you.
    Mr. Browder.
    Mr. Browder. So why is Putin so mad at this? Why is he mad 
at me? Why is he mad at you? Why is he mad at this concept of 
Magnitsky Act, Magnitsky sanctions? He's mad because, although 
Washington is not the center of innovation and technology, you 
and your colleagues have come up with a new technology for 
dealing with human rights abuse here in Washington. You've been 
the big innovators. And you found the Achilles' heel of the 
Putin regime.
    As Garry has said, as Vladimir Kara-Murza has said, as 
Boris Nemtsov has said--the Soviet Politburo didn't go on 
vacation to St. Tropez and South Beach, but the people from the 
Putin regime do, and we figured out their Achilles' heel, and 
we know it. And we should use it, and we should use it 
aggressively, and we should use it going forward, and we 
shouldn't be shy about using it.
    Thank you for doing this today.
    Mr. Wicker. And thanks to all three members of the panel 
and to the members of the Commission who were here today, and 
this hearing is now closed.
    [Whereupon, at 11:23 a.m., the hearing ended.]
    

                          A P P E N D I C E S

=======================================================================


                          Prepared Statements

                              ----------                              


   Prepared Statement of Hon. Roger Wicker, Chairman, Commission on 
                   Security and Cooperation in Europe

     The Commission will come to order. Good morning. Welcome 
to today's hearing on ``The Magnitsky Act at Five Years: 
Assessing Accomplishments and Challenges.''
    Before we begin today, I want to recognize Ambassador David 
Killion, the Helsinki Commission Chief of Staff, who is 
retiring at the end of this month after 23 years of Federal 
Service. Senator Cardin and I joined together to appoint 
Ambassador Killion to direct the Commission at a key moment--
shortly after Russia's invasion of Crimea in 2014.
    Since then, Ambassador Killion's leadership has contributed 
greatly to enhancing the stature and the impact of our 
Commission as it develops U.S. policy responses to critical 
security threats in the OSCE region. With his considerable 
diplomatic skills, he has also managed to keep our Commission 
unified, enabling us to speak with a strong voice when 
necessary on issues such as Russia's violation of its Helsinki 
commitments. In addition, Ambassador Killion has extended 
Commission leadership to new and critically relevant policy 
areas, such as the effort to combat kleptocracy. As such, this 
hearing is a perfect capstone to Ambassador Killion's work for 
us. Ambassador, thank you for your public service.
    This is the Commission's final hearing in 2017, and I 
cannot think of a more fitting way to end the year than to 
revisit one of the signature pieces of legislation that has 
come out of the Helsinki Commission.
    The Magnitsky Act was drafted to hold accountable the 
Russians who were responsible for the torture and murder of tax 
attorney Sergei Magnitsky in 2012. Why was the Helsinki 
Commission concerned with this particular crime?
    The mandate of the Helsinki Commission requires us to 
``monitor the acts of the signatories which reflect compliance 
with or violation of the articles of the Final Act of the 
Conference on Security and Cooperation in Europe,'' also known 
as the Helsinki Final Act. Those articles deal with commitments 
in three major areas, or ``baskets''--security, economics, and 
the human dimension.
    The case that ended with Sergei Magnitsky's tragic death 
concerned major violations in two of those three ``baskets''--
massive corruption in Russia, which the OSCE attempts to deal 
with through economic measures, and the egregious human rights 
violations involved in the unspeakable treatment of Sergei 
Magnitsky.
    The five years that have elapsed since the passage of the 
Magnitsky Act--and the eight years that have elapsed since 
Sergei Magnitsky's murder--have certainly shown that our 
concern with Russia's unchecked corruption and wanton disregard 
for human rights was well founded. In that time corruption has 
continued to eat away at the fabric of Russian society, 
enabling further misbehavior both within and beyond Russia's 
borders. The state at this point can truly be described as a 
kleptocracy, where Putin rules with the help of a group of 
cronies whose loyalty is guaranteed by transfers of wealth 
stolen from the Russian people.
    Russia has violated the territorial integrity of a European 
State and interfered in the elections of a number of OSCE 
participating states, including the United States. And, of 
course, Russian citizens continue to suffer from the predations 
of their own government on a daily basis. Russian opposition 
politician Boris Nemtsov, who was himself murdered in 2015 
within sight of the Kremlin walls, deemed the Magnitsky Act 
``the most `pro- Russia' law--for justice.'' We do sincerely 
hope that the Magnitsky Act will one day lead to justice--not 
only for Sergei Magnitsky and his family and friends, but also 
for all Russians who suffer violations of their universal 
rights by a state that believes it is accountable to no one.
    We have three remarkable witnesses to speak to us today 
about what the Magnitsky Act has accomplished, as well as what 
still needs to be done to encourage Russia to respect the 
rights of its citizens and live up to its OSCE commitments.
    We will hear first from William Browder, the CEO of 
Hermitage Capital, the firm that was plundered to the tune of 
$230 million in a massive tax evasion scheme by Russian 
authorities. Mr. Browder has worked tirelessly for the past 
eight years, at great risk to his own safety, to bring those 
responsible for Sergei Magnitsky's murder to justice. I 
strongly encourage any of you who have not read his book ``Red 
Notice'' to pick up a copy and do so. It is a gripping and 
unforgettable account of massive corruption, torture, murder, 
and impunity.
    After that, Garry Kasparov will provide us with a broader 
view, addressing the full scope of corruption and human rights 
violations in Russia. Mr. Kasparov is well known to most of us 
as one of the greatest chess players in history, becoming the 
youngest world champion ever at age 22 in 1985. After 20 years 
at the top of the chess world, he gave it up and joined the 
fledgling Russian pro-
democracy movement in 2005. He participated, along with Boris 
Nemtsov, in the May 2012 Bolotnaya Square demonstrations, one 
of the biggest protests held in Russia since the 1990s. The 
Bolotnaya Square protests were followed by an extensive 
crackdown that forced him to leave the country and relocate to 
New York. Mr. Kasparov is the chairman of the New York-based 
Human Rights Foundation, and he has also found the time to 
write a book entitled ``Winter Is Coming: Why Putin and the 
Enemies of the Free World Must Be Stopped.'' Although I have 
not had an opportunity to read the book in its entirety, I 
certainly agree with its premise: The free world needs to stand 
up to the threat that Russia poses to core Helsinki Act 
principles. I believe this is the first time we have ever had a 
world chess champion testify at a Helsinki Commission hearing, 
and we are very much looking forward to hearing what Mr. 
Kasparov has to say.
    Finally, the Honorable Professor Irwin Cotler will testify 
about his work to pass a Canadian version of the Magnitsky Act. 
The pressure from Russia on Mr. Cotler and other Canadian 
backers of that bill has been immense--just as it has been in 
every other country that has considered passing a version of 
the Magnitsky Act. Professor Cotler has a distinguished career 
in advancing human rights around the world, not only as 
Canada's Attorney General and Justice Minister, but also as the 
founder and chair of the Raoul Wallenberg Center, an 
institution dedicated to bringing together all parts of civil 
society in the defense of human rights. We welcome your 
thoughts on what the international community should do to 
address the scourge of Russian corruption and impunity.
    Again, we thank you for being here, and thank you for your 
full written statements, which will be included in the record.

  Prepared Statement of Hon. Chris Smith, Co-Chairman, Commission on 
                   Security and Cooperation in Europe

    Mr. Chairman, I would like to take the opportunity to thank 
our distinguished guests for being with us today and marking 
the fifth anniversary of the Sergei Magnitsky Rule of Law 
Accountability Act.
    This all began with Sergei's investigation into the brazen 
theft of $230 million from the Russian people by officers of 
FSB Unit K and the Interior Ministry. He continued to expose 
Colonel Artem Kuznetsov and Major Pavel Karpov's plunder from 
foreign investors and how they lavishly spent it, while 
millions of Russians struggled to get by. For that, Kuznetsov 
and Karpov illegally detained Sergei, repeatedly tortured him, 
and denied him medical attention. All in the hope that they 
could force Sergei to confess and absolve themselves of their 
crimes. Sergei was murdered because he would never confess to 
trumped up charges, and never gave into to Kuznetsov and 
Karpov's brutality.
    The Senate and the House passed the Sergei Magnitsky Act 
five years ago to ensure that Sergei and his family got the 
justice they deserved and to send a message to Russia: ``This 
shall not stand.'' The identification and sanction of those 
involved in all aspects of Sergei's illegal detention, torture, 
and murder struck right at the heart of the Kremlin elite. It 
sent an unmistakable signal that the United States of America 
is prepared to sanction all those involved in human rights 
abuses.
    In response, President Putin took his wrath out on innocent 
Russian orphans. These children, many of whom were in need of 
serious medical attention, had their hopes of a loving family 
and a happier life dashed--dashed because the Kremlin elite saw 
harming vulnerable children as the best means to retaliate 
against the United States. Nineteen children died who could 
have been helped, had they been adopted and brought to the U.S.
    Furthermore, Putin, still reeling from the impact of the 
Magnitsky Act, lashed out at the United States, and those he 
saw as responsible for the law, including myself and others in 
this room. Despite having traveled to Russia many times, I was 
denied a Russian visa in 2013. I had planned a trip to discuss 
the impact of the Magnitsky Act inside Russia, but my 
application was ignored. The Russian Ambassador gave no 
explanation for my denial, but I think we all know why it 
happened. Russia saw me as a threat, because the Sergei 
Magnitsky Act had hurt them.
    More than 40 years on from the signing of the Helsinki 
Final Acts, the human rights situation in Russia continues to 
deteriorate. But the Magnitsky Act wounded President Putin and 
his close circle. It took away that which was most dear to the 
Kremlin elite--their freedom to travel to the U.S. and to 
safeguard their money in our nation. The law set the standard 
around the world for other legislation that would freeze the 
assets and travel of Russian human rights abusers.
    I would once again like to thank the witnesses for 
attending this hearing, and their dedication to exposing the 
malicious and insidious nature of President Putin's regime. Mr. 
Chairman, I yield my time.

     Prepared Statement of William Browder, CEO, Hermitage Capital 
                               Management

    Chairman Wicker, Ranking Member Cardin, distinguished 
members of the Commission, thank you for the opportunity to 
share my views on the Magnitsky Act today.
    When my lawyer, Sergei Magnitsky, was murdered on November 
16, 2009, after uncovering massive state corruption in Russia, 
it was the most heart-breaking moment of my life. Sergei had 
been killed because he was my lawyer. He would still be alive 
today if he hadn't worked for me.
    As I began the fight for justice for Sergei, I encountered 
all sorts of opposition in Russia and abroad. I could never 
have imagined that day when I learned of his murder that there 
would someday be a U.S. human rights law bearing his name. But 
five years ago today, on December 14, 2012, the President of 
the United States signed the Sergei Magnitsky Rule of Law 
Accountability Act into law.
    Moreover, on the day it passed, I could never have 
predicted how far the Magnitsky Act would spread around the 
world. Without exaggeration, it has become the most important 
piece of human rights legislation passed in this century.
    As I sit in front of you today, I want to underline that 
the entire Magnitsky movement started right here at the 
Helsinki Commission nine years ago.
    In April, 2009, when Sergei Magnitsky was still alive, I 
met Kyle Parker, a staff member at the Commission. I briefed 
him on how Sergei had been falsely arrested and imprisoned in 
retaliation for uncovering and exposing a $230 million tax 
rebate fraud committed by officials of the Russian state. Upon 
hearing the story, Mr. Parker recommended that I present 
Sergei's case at a full Commission hearing in the summer of 
2009. It was at that point that Senator Cardin became aware of 
Sergei's story.
    When Sergei was murdered on November 16, 2009, Senator 
Cardin immediately took it upon himself to see that this 
terrible injustice would not go without consequences. He worked 
with Senators Wicker, McCain and Lieberman as well as the 
Helsinki Commission staff, and together they introduced the 
Magnitsky Act in October, 2010. Representative McGovern led the 
parallel effort in the House of Representatives.
    They did so at a moment when the U.S. government's policy 
was to reset relations with Russia. At the time, the U.S. 
Administration was firmly against antagonizing the Russian 
government in any way, and based on the public feedback of the 
Russian government, the Magnitsky Act would do just that.
    Even though it appeared that the bill had little chance of 
passage due to the president's opposition, I was overwhelmed 
and touched to see so many Russian activists like the late 
Boris Nemtsov, Ludmila Alexeeva and Garry Kasparov take up 
Sergei's cause and publicly call for a Magnitsky Act to be 
adopted. Having this public discourse was a small measure of 
justice in and of itself.
    It turned out that everyone's pessimism was misplaced. The 
nearly biblical nature of Sergei's sacrifice took on a life of 
its own and created a rare moment where morality would overcome 
the cold calculations of realpolitik.
    The bill came up for vote in Congress in November, 2012, 
winning overwhelming bi-partisan support. It passed the House 
365-43 and the Senate 92-4. It was signed into law by President 
Obama on December 14, 2012.
    The power of the Magnitsky Act did not stop there. Senators 
Cardin, Wicker and McCain realized that they had stumbled onto 
a new technology for dealing with human rights abuse. In the 
past, murderous dictatorships like the Khmer Rouge didn't go on 
vacation to St. Tropez and South Beach, but in today's 
globalized world these kinds of dictators do. The Senators 
asked, ``Why shouldn't the Magnitsky Act be applied globally?'' 
and in 2015 launched the Global Magnitsky Act.
    Because the bill continued the Magnitsky legacy, the 
Kremlin was dead set against it. In the spring and summer of 
2016, the Kremlin-linked lawyer, Natalia Veselnitskaya, worked 
with a team of expensive DC lobbyists, PR firms, private 
investigators and other operatives, sparing no expense to try 
to stop the Global Magnitsky Act or to have Sergei's name 
removed from it. Thankfully, these efforts were not successful.
    After the bill passed with a similar overwhelming majority 
in both Houses of Congress, the president signed the Global 
Magnitsky Act into law on December 23, 2016.
    After this, the dominoes began to fall around the world. In 
December, 2016, the Estonian Parliament passed the Estonian 
Magnitsky Act by a unanimous vote of 90-0. In May, 2017, the 
British Parliament passed their equivalent to the Magnitsky Act 
into law, allowing the British government to seize assets of 
human rights violators. In October, 2017, the Canadian 
Parliament voted 277-0 in favor of a Canadian Magnitsky Act. 
Then, on November 16, 2017--the eighth anniversary of Sergei's 
murder--the Lithuanian Parliament passed their Magnitsky Act 
71-0.
    Parliaments in Ukraine, South Africa and Gibraltar are each 
drafting their own Magnitsky Acts and will be considering them 
in the near future. We're working with parliamentarians in 
other countries to introduce similar Magnitsky legislation.
    All of this started here. I could never have imagined that 
a single hearing at the Helsinki Commission would have turned 
into this historic global justice movement.
    Critics of the Magnitsky Act claim that all it does is 
antagonize Vladimir Putin and is not effective. However, the 
evidence points to the contrary.
    When Mikhail Khodorkovsky, the oligarch who crossed Putin 
and who was imprisoned for nearly ten years, was released in 
2014, he told me that after the Magnitsky Act passed there was 
a noticeable improvement in the treatment of prisoners. The 
guards were all terrified of being added to the Magnitsky list 
themselves.
    Russian judges are equally scared of being added to the 
Magnitsky list. Not a month goes by without a headline from the 
Russian courts where Sergei Magnitsky's name is mentioned as 
other victims highlight their own abuse.
    Most importantly, we know how effective the Magnitsky Act 
is because of Putin's own reaction. In 2012, he publicly stated 
that repealing Magnitsky-like sanctions was one of his single 
largest foreign policy priorities. This led to a whole series 
of efforts culminating in the now notorious meeting between 
Natalia Veselnitskaya and Trump representatives at Trump Tower. 
This exhaustive campaign underlines just how high a priority 
this is for Putin.
    For me, Putin's desire to discredit the Magnitsky Act came 
at a high personal cost.
    In July, 2013, shortly after the Magnitsky Act was passed, 
Putin put me on trial in absentia for trumped-up tax charges 
along with Sergei Magnitsky, three years after Sergei's murder. 
Sergei was the first person to be tried posthumously in Russian 
history. We were both found guilty and I was sentenced to nine 
years in a Russian prison colony.
    Even before this verdict, the Russian government applied to 
Interpol for a Red Notice for my arrest. They also applied to 
the British authorities to have me extradited from the U.K. 
Both of those requests were refused because they were deemed to 
be illegitimate and politically motivated.
    But that didn't stop Putin. He was so angry that, in spite 
of the previous rejection, his government re-applied to 
Interpol four more times. The most recent Interpol request from 
Russia came on the same day that the Magnitsky Act was signed 
into law in Canada in October, 2017. This request and all 
others have been rejected. In fact, after this last rejection, 
Interpol has sent a notice to all member states instructing 
them not to cooperate with Russia on any further attempts to 
have me arrested.
    Putin was no more effective in his attempts with the 
British government. The Kremlin applied to U.K. law enforcement 
agencies a dozen different times for mutual legal assistance 
and my extradition. All of these requests have been firmly 
rejected by the British government.
    Even though Putin fails every time, he hasn't given up. 
When the bogus tax-evasion charges went nowhere, he decided to 
escalate with even more ridiculous allegations against me. The 
Russian government accused me of stealing $4.8 billion of IMF 
funds destined for Russia during the 1998 currency collapse; 
they accused me of being an MI6 and CIA dual agent intent on 
destabilizing Russia; they accused me of being a serial killer, 
responsible for the murder of Russian criminals who were 
involved in the $230 million tax rebate fraud; and finally they 
even accused me of killing Sergei Magnitsky himself.
    Putin's rage was not confined to absurd criminal 
accusations. He's taken more traditional criminal approaches as 
well. Kremlin agents have made multiple death threats against 
me. The most serious of which came from Dmitry Medvedev, the 
Russian prime minister, who told a gathering of journalists at 
the World Economic Forum in Davos in 2013 that, ``It's a shame 
that Sergei Magnitsky is dead and Bill Browder is alive and 
running around.'' In the summer of 2015, I received a message 
from a senior U.S. official that the U.S. government was aware 
of efforts to organize a rendition plot to illegally kidnap me 
and bring me back to Russia.
    Why is Putin so invested in this? Because this goes to the 
core of his kleptocratic regime. Unlike in Soviet times, today 
the Kremlin does not commit crimes for ideological reasons. 
They commit crimes for money. In this case, the theft of $230 
million. Over the last eight years we've investigated who got 
that money and found that Putin himself was a recipient of 
proceeds of this crime through his closest childhood friend, 
Sergei Roldugin, a famous cellist.
    We have also discovered that the head of the Russian tax 
office, Olga Stepanova, who authorised the illegal tax refund, 
as well as two other tax officials, Olga Tsareva and Elena 
Anisimova, also received proceeds from the crime.
    In 2013, the U.S. Department of Justice discovered that a 
company owned by Denis Katsyv, the son of the former vice-chair 
of the Moscow region, where some of the cover-up of the crime 
took place, was also a recipient.
    This summer we discovered that a Russian/Syrian national 
named Issa al-Zeydi received millions from the fraud on a 
corporate account in Cyprus. Issa al-Zeydi was named by the 
U.S. Treasury as a person providing material support for the 
Assad regime.
    At present, a dozen countries have launched criminal 
investigations into the recipients and launderers of the stolen 
$230 million that Sergei Magnitsky uncovered. We expect more 
individuals and companies will be exposed and charged in the 
future.
    Putin's reaction has been so extreme because it is crimes 
like this that lubricate the functioning of his kleptocracy.
    In spite of enormous efforts by the Russian government, 
Putin has not been successful at repealing the Magnitsky Act or 
preventing it from spreading around the world.
    However, there is still a lot more that needs to be done, 
and this is where the Helsinki Commission can act.
    First, the number of people sanctioned is woefully 
inadequate. The U.S. government is in possession of evidence 
linking at least 282 Russians directly to the Magnitsky case, 
all of whom should be targeted under the Magnitsky Act. So far, 
only 35 have been sanctioned. Every December a new Magnitsky 
sanctions list is published by the U.S. Treasury. I hope this 
year's list will be robust and responsive to the long backlog 
of people who still should be sanctioned. I also hope that many 
other cases of gross human rights abuse in Russia get the 
attention they deserve.
    Second, one of the key perpetrators of the crime that led 
to Sergei's death, Dmitry Klyuev, appears to be running circles 
around the U.S. Treasury Department, the agency that enforces 
the Magnitsky Act. Klyuev was added to the Magnitsky List in 
2014 but pre-emptively moved many of his assets into the names 
of nominees in order to evade sanctions. We've informed the 
Treasury Department about his alleged sanctions evasion but so 
far the nominees remain free to manage the assets without 
consequence. This is an issue that goes well beyond Klyuev.
    Third, the rise of Bitcoin and cryptocurrencies will likely 
create a new way around these sanctions for the Putin regime. 
As of now, the Magnitsky sanctions are highly effective because 
once a person is on the Magnitsky list, they become pariahs in 
the international financial system. The moment a person's name 
hits the U.S. Treasury sanctions list, no bank in the world 
wants to do business with that person to avoid being in 
violation of U.S. sanctions. Unfortunately, Bitcoin and other 
anonymous cryptocurrencies allow people to bypass the financial 
system and conduct financial business anonymously. This is an 
issue which requires the urgent attention of the U.S. and other 
Western governments in relation to Magnitsky sanctions as well 
as all other sanctions programs.
    Fourth, there is a provision of the Magnitsky Act which 
requires the U.S. government to encourage other countries to 
adopt Magnitsky Acts. I believe it should become an explicit 
U.S. policy to promote the Magnitsky Act at every opportunity.
    The next G7 summit will be held in June, 2018, in La 
Malbaie, Quebec, Canada. This meeting would be an appropriate 
moment for the U.S. and its partners to advocate for the 
remaining G7 countries that do not have Magnitsky Acts--
Germany, France, Japan and Italy--to adopt their own as soon as 
possible. More broadly, the U.S. should use its position at the 
OSCE and the U.N. to further advocate for Magnitsky sanctions 
around the world.
    In conclusion, I'd like to thank the Helsinki Commission 
for its historic work on the Magnitsky movement and encourage 
the Commission to double down given the momentum and success of 
this legislation.

Prepared Statement of Garry Kasparov, Chairman, Human Rights Foundation

    Thank you for having me here today, and to Chairman Wicker 
and Co-Chairman Smith for holding this hearing on a topic of 
vital national and international security.
    I will understand if few of you recall that I spoke here 
over thirteen years ago, in May 2004, on a panel titled ``Human 
Rights in Putin's Russia.'' Bill Browder and I were still 
attempting to do our part to salvage democracy and the rule of 
law from inside Putin's Russia while the entire democratic 
world preferred to ignore the true nature of what Putin was 
doing in my country.
    Mikhail Khodorkovsky had just been arrested. There were 
still a dwindling handful of Russian media not under Kremlin 
control. The Russian parliament still had a few members who 
would occasionally criticize Putin. Anna Politkovskaya and 
Boris Nemtsov, Sergei Magnitsky, and so many others who opposed 
Putin were all still alive.
    I am not the sort of person to wallow in nostalgia, but it 
is hard not to think of how different Russia and the world 
might be today had the free world taken a stand against 
Vladimir Putin back then, before he had consolidated total 
power in Russia. In 2004 Putin still needed friends on the 
international stage, and he had them. By 2012 that phase was 
over, and a far deadlier phase of dictatorship began, when 
Putin needed not friends, but enemies to justify his eternal 
grip on power. Today, there is no longer any need to discuss 
human rights in Putin's Russia. They are gone, and Putin is 
revealed to all as what we warned he could become: a dictator.
    And please, do not speak of Putin's supposed popularity. A 
popular leader does not need to fake elections, or destroy the 
free media, or jail critics or kill opposition leaders. Status 
that is artificially fashioned by twenty-four-hour propaganda, 
repression of all dissent, and the elimination of all rivals is 
not approval, it is dictatorship. Here, thirteen years ago, I 
said, ``Without Western attention and pressure, the situation 
will only worsen during Putin's next four years.'' We still 
dreamed that Putin could be forced to hold real elections in 
2008, but it was not to be. Later I said, ``Putin is a Russian 
problem, for Russians to deal with. But if he isn't stopped, he 
will soon be a regional problem--and after that he will be 
everyone's problem.''
    Fast-forward to 2006, and the murder of Russian anti-Putin 
whistleblower Alexander Litvinenko in London with a nuclear 
isotope. To 2008, and Putin's invasion of Georgia--for which he 
also suffered no consequences and was even rewarded with the 
infamous American ``Reset.'' Jump to 2012, and Putin's broad 
crackdown against any and all opposition and demonstrations, 
which led to Boris Nemtsov's murder and my own exile. To 2014, 
and Putin's invasion of Crimea and Eastern Ukraine. To 2016, 
and direct Russian interference in the American presidential 
election--after similar activities in the UK, Netherlands, and 
elsewhere in Europe.
    For a decade now, many of us familiar with the reality of 
Putin and his regime, including both of my fellow guests here 
to offer testimony, have insisted that the only effective way 
to pressure Putin is to target the only thing he cares about: 
his hold on power in Russia. And that the best way to target 
Putin's power is to take aim at his agents and cronies and 
their money, to pursue the mafia that holds the levers of power 
and who benefit the most from Putin's rule. The individuals who 
can influence Putin must be targeted or there can be no 
effective deterrence. There is no national Russian interest 
Putin cares about beyond propaganda value. In fact, Russian 
national interest and Putin's interests are diametrically 
opposed in nearly every way. Putin does not care about the 
Russian people, the Russian economy, or the image of Russia 
abroad. I repeat: he does not care. This is why legislation 
that targets Putin and his mafia is pro-Russia, not anti-
Russia.
    But I know that first and foremost we are here to discuss 
the interests of the United States. Its security, integrity, 
and economic well-being. Consider the American and other free 
world policy goals of dealing with Putin's aggression. One, to 
improve American and international security by deterring him 
from further hostile acts. Ukraine, Syria, Venezuela, missile 
tech to North Korea, election meddling--Putin's attacks are 
asymmetric and so the global response must be asymmetric as 
well--by going after what matters to him most. Two, to threaten 
Putin's grasp on total power in Russia by forcing his elites to 
choose between loyalty to him and their fortunes abroad. Three, 
to support the long-term interests of the Russian people by 
exposing the corruption of our rulers. To all three of these 
goals, the Magnitsky Act is the answer.
    Putin's regime is a mafia and you have to fight it like a 
mafia. Very strong penalties must be ready and widely known. I 
understand that deterrence is difficult because its fruits are 
not apparent. If it works, maybe nothing visible happens. To 
those who say that sanctions have not worked, can you say what 
else Putin might have done without them in place? Or why he 
works so frantically to have them repealed?
    Progress in a hybrid war is not measured in territory 
conquered or battlefield casualties. Corrupting influence and 
propaganda spread like a contagious disease. You can measure 
the effectiveness of the Magnitsky legislation the way you 
measure the effectiveness of antibiotics. You put a drop in the 
petri dish and see if the bacteria stop growing, if the 
bacteria respond to the antibiotic and die. By this measure, 
the Magnitsky Act has been effective, and could be much more 
effective if strengthened and implemented globally and 
aggressively.
    Last month, a Reuters report said anxiety was spreading 
among Russia's wealthiest because of sanctions and the threat 
of the U.S. blacklist. It reported that some business leaders 
were trying to avoid being seen in public near Putin, and to 
distance themselves. This is progress; it shows the medicine is 
effective. But anxiety is not enough to turn against a brutal 
dictator. Avoiding photo ops is not enough to bring down a 
mafia. It is essential to increase the pressure, to continue 
with what works now that the right path has been confirmed. 
There is no other method.
    Putin's weapons of hybrid war can only be defended against 
at great difficulty and expense. Misinformation, cyberwarfare, 
and other methods are cheap and easy to deploy, and--take it 
from a pretty good chessplayer--playing only defense is always 
a losing game. The answer is deterrence. Putin and his gang 
must understand that, if he continues this path, their 
fortunes, their families' comfortable lives abroad, will be at 
risk. They aren't jihadists or ideologues, they are 
billionaires who are used to profiting from dictatorship at 
home while enjoying the good life in the West. End that 
perverse double standard. Follow the money, the real estate, 
the stock, and reveal it, freeze it, so that one day it can be 
returned to the Russian people from whom it was looted, and to 
help rebuild the country that has been drained for two decades. 
The brittle nature of Putin's one-man dictatorship will be 
exposed very quickly.
    The alternative to appeasement is not war, it is 
deterrence. And worrying about retaliation is absurd when Putin 
will continue to escalate anyway, as long as he thinks he can 
get away with it. The best way to avoid an escalating conflict 
is to convince your opponent that he will lose. And make no 
mistake, there is a war going on whether you want to admit it 
or not. It is very easy to lose a war that you refuse to 
acknowledge even exists. Engagement has failed because Putin 
was never your friend. There is no common ground. Now he has 
revealed his true colors as a sworn enemy of the free world. 
And time is of the essence.
    Thank you.

About Garry Kasparov--Garry Kasparov is widely regarded as the 
greatest chessplayer in history, becoming the youngest world 
champion ever at 22 in 1985. He retired in 2005 to become a 
leader of the Russian pro-democracy movement against the rising 
dictatorship of Vladimir Putin. He is the chairman of the New 
York-based Human Rights Foundation and is a powerful voice for 
individual freedom worldwide. In 2015, he wrote the prescient 
book ``Winter Is Coming: Why Putin and the Enemies of the Free 
World Must Be Stopped.'' His latest is ``Deep Thinking: Where 
Machine Intelligence Ends and Human Creativity Begins'' (2017).

For further information: Mig Greengard, senior aide to Garry 
Kasparov <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b7dad0c5d2d2d9d0d6c5d3f7dcd6c4c7d6c5d8c199d4d8da">[email&#160;protected]</a> <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f49b92929d9791b49f95878495869b82da979b99">[email&#160;protected]</a> 
+1 917.495.9460

  Prepared Statement of Irwin Cotler, PC, OC, Chair, Raoul Wallenberg 
                        Center for Human Rights

    I am delighted to participate in the common cause which 
brings us together--the struggle against the cultures of 
criminality and corruption and the impunity that underpins 
them--and this as part of the larger pursuit of justice and 
accountability both domestically and internationally.
    We meet at an important moment of remembrance and reminder:

<bullet> LThe 8th anniversary of the torture and murder of 
Sergei Magnitsky--who uncovered the largest corporate tax fraud 
in Russian history and paid for it with his life--and where in 
a move that would make Kafka blush, the Russians engaged in a 
posthumous prosecution of Magnitsky for the very fraud that he 
had exposed.

<bullet> LThe 5th anniversary of the adoption here in the U.S. 
of the Sergei Magnitsky Rule of Law Accountability Act, which 
inspired similar initiatives elsewhere.

<bullet> LThe immediate aftermath of the unanimous adoption by 
both houses of the Canadian Parliament of Global Justice for 
Sergei Magnitsky legislation, titled ``Justice for Victims of 
Corrupt Foreign Officials Act.''
    Accordingly, what I would like to do is first, summarize 
briefly the process in Canada--as a matter of chronology and 
content--that led to this historic, albeit belated, Canadian 
initiative; Second, summarize the raison d'etre of this 
legislation; and finally some brief comments and where do we go 
from here, in Canada and internationally.
    First, having regard to the genesis and development of the 
Magnitsky process, it was inspired, not unlike the U.S., by an 
encounter I had with Bill Browder in 2010 in the UK, and which 
led to the launch of the Justice for Sergei Magnitsky movement 
in Canada. A series of initiatives in November 2010 alone 
provide a looking glass into the character and content of the 
movement, which included:
<bullet> LMeeting of the Foreign Affairs Subcommittee on 
International Human Rights with Bill Browder as principal 
witness on November 2nd

<bullet> LInternational parliamentary premiere of ``Justice for 
Sergei Magnitsky'' documentary

<bullet> LFirst of many Op-Eds calling for Justice for Sergei 
Magnitsky and outlining the advocacy and legislative framework 
to be followed

<bullet> LUnanimous adoption by the Foreign Affairs 
Subcommittee of my motion calling, inter alia, for justice for 
Sergei Magnitsky legislation modeled on the U.S. initiative.
    One year later, I introduced a private Member's Bill titled 
``an Act to Condemn Corruption and Impunity in Russia in the 
Case and Death of Sergei Magnitsky,'' the first legislative 
initiative of its kind in the Canadian Parliament, but being 
from an opposition party it required support from the 
government of the day, which was not forthcoming.
    In 2012, Boris Nemtsov, leading Russian democrat, came to 
Canada to support this Private Member's Bill along with 
Vladimir Kara-Murza, and later that year we launched the 
Justice for Sergei Magnitsky Interparliamentary Group, which 
led to resolutions being adopted in the European Parliament and 
country adoptions in Estonia and Lithuania.
    In 2013 the pattern of unanimous motions continued, but the 
focus now shifted to representations to the Canadian 
Government, and where Bill Browder and I joined in meetings 
with Government Ministers, and where we conveyed documentary 
evidence of the criminality and corruption of sixty Russian 
officials, but our efforts to get Government actions were 
unavailing. The year 2014 began with Canada sanctioning Russian 
officials for Russian aggression re: Crimea and the Ukraine, 
and with Russia retaliating by banning 13 Canadian leaders, 
including MP Chrystia Freeland (who was later to become 
Minister of Foreign Affairs) and myself, but still no 
government legislation re: Magnitsky.
    2015 witnessed a number of dramatic developments, which 
began to move us in the direction of legislation.

<bullet> LIn February 2015 Boris Nemtsov, leading campaigner 
internationally for Justice for Sergei Magnitsky legislation 
and a leading critic of Russian aggression in Crimea and 
Ukraine, was murdered just outside the Kremlin.

<bullet> LIn March 2015 the House unanimously adopted my motion 
calling for Global Justice for Sergei Magnitsky legislation 
again inspired by the developments in the U.S.

<bullet> LIn June I introduced, again as a Private Member's 
Bill, the Global Magnitsky Human Rights Accountability Act and 
while the Conservative Government finally agreed to adopt the 
legislation, the process was adjourned by the calling of an 
election.

<bullet> LIn the course of the election, each of the three 
principal political parties, Liberals, Conservatives, and the 
New Democratic Parties committed themselves to adopting such 
legislation if elected.

<bullet> LThe Liberal Party won the election but the momentum 
of the Government was stalled. The new Foreign Minister 
Stephane Dion, considering that such legislation was 
unnecessary (i.e. we had other domestic legislation which would 
suffice) and that it would prejudice our ``re-engagement with 
Russia.''

    Accordingly, we reignited the parliamentary process--now in 
both Houses--and again with the witness testimony of Bill 
Browder, Vladimir Kara-Murza, Zhanna Nemtsova, and Garry 
Kasparov. A number of developing factors underpinned the 
momentum, including:
<bullet> LThe founding of the All-Party Raoul Wallenberg 
Parliamentary Caucus for Human Rights, which made such 
legislation a priority

<bullet> LUnanimous report from the Foreign Affairs Committee 
calling for Global Justice for Sergei Magnitsky legislation

<bullet> LThe leadership of the newly appointed Foreign 
Minister Chrystia Freeland, who in May 2017 announced 
Government support for Sergei Magnitsky Global Justice and 
Accountability legislation

<bullet> LSuccession of Russian threats emanating both from the 
Russian embassy in Canada and Putin himself warning against 
Canadian adoption of that legislation and the adverse impact it 
would have on Canada-Russia relations

<bullet> LMeeting of the Raoul Wallenberg Caucus calling not 
only for the passage of the legislation, but for its unanimous 
adoption, so as to send a message to the Kremlin that we will 
not be intimidated

<bullet> LFinally, Global Justice for Sergei Magnitsky 
legislation passes unanimously in both Houses and received 
royal assent
    The momentum for the legislation was not unrelated to the 
resurgent global authoritarianism, which mandated a Global 
Human Rights Act, because while Russia was a major human rights 
violator--arguably the most threatening of the human rights 
violators because of its externalized aggression and its 
domestic repression--Russia was not the only human rights 
violator, which accounted therefore for the objectives and 
purposes which underpin this legislation and which includes:

First, to combat the persistent and pervasive culture of 
corruption, criminality, and impunity.

Second, to deter thereby other would-be or prospective 
violators, because if we indulge that culture of impunity, we 
only embolden the human rights violators. If we sanction the 
human rights violators, we can deter others because they know 
there is a price to be paid for their corruption or 
criminality.

Third is that we make the pursuit of international justice a 
priority and a pillar of our human rights policy both domestic 
and international.

The fourth is to uphold the rule of law and justice and 
accountability in our own territory through visa bans and asset 
seizures and the like. The recent evidence of how Magnitsky 
assets have been laundered in Canada is but one case study of 
the importance of having this type of comprehensive 
legislation.

Fifth, this legislation does not interfere with the sovereignty 
of any other country. We are not acting in any other country. 
What we are seeking to do is to protect our own sovereignty, 
our own rule of law, our own economy, and to exclude these 
would-be perpetrators from exercising what is in effect a 
privilege, and not a right, to enter our country.

Sixth, is to protect Canadian businesses operating abroad. 
Magnitsky uncovered the largest corporate tax fraud in Russian 
history, which was perpetrated against a U.K.-based entity, 
Hermitage Capital, so this type of legislation would protect 
not only the integrity of commerce in Canada, but also our 
Canadian businessmen operating abroad.

Seventh, is the importance of the naming and shaming of human 
rights violators, so that they cannot, in effect, leverage 
their culture of criminality and corruption to come to Canada, 
purchase houses here, vacation here, send their children to 
schools here, launder their assets here, and the like. In other 
words, we need to protect the integrity of our sovereignty, our 
rule of law, our economy, and our institutions.

Eighth, it is important to appreciate that this legislation 
targets human rights violators and not governments, targeting 
individuals who have engaged in gross violation of 
internationally recognized human rights such as extrajudicial 
executions, torture, widespread and systematic targeting of 
civilians, and to prevent them from entering our country or 
laundering their assets here.

Ninth, such legislation would not bind the Canadian government; 
rather, it would empower the Canadian government. It would 
allow us to be a protector of human rights, and not an enabler 
of the violators of human rights.

Finally, and most importantly, it tells the human rights 
defenders, the Magnitskys of today in Russia or those in any 
other part of the world, such as Raif Badawi in Saudi Arabia or 
Leopoldo Lopez in Venezuela or the Baha'i in Iran, that they 
are not alone, that we stand in solidarity with them, that we 
will not relent in our pursuit of justice for them, and that we 
will undertake our international responsibilities in the 
pursuit of justice and in the combatting of the culture of 
impunity and criminality in these respective 
countries.

    Where do we go from here? May I make a number of 
suggestions:
    First, we should seek to internationalize the Global 
Justice for Sergei Magnitsky movement and secure as many 
participating countries as possible. As Boris Nemtsov put it, 
the adoption of Magnitsky legislation by EU countries would be 
a serious blow to the criminal regime in Russia. As he put it, 
``If you want to protect yourself against Putin's thieves, 
murderers, and corrupt officials, you must adopt the Magnitsky 
law.''
    Second, three of the G7 countries have now adopted 
Magnitsky legislation--the U.S., UK, Canada--as Canada assumes 
the presidency of the G7--and the next G7 meeting will be held 
in Quebec--we should seek to mobilize support for such 
legislation in the four remaining G7 countries--Germany, 
France, Italy, and Japan.
    Third, we need to make the OSCE a focal point of our 
advocacy for Justice for Sergei Magnitsky legislation, anchored 
in our commitments under the Helsinki Final Act, where the OSCE 
countries have affirmed that ``issues relating to human rights, 
fundamental freedoms, democracy, and the rule of law, are of 
international concern and the respect of these rights and 
freeedoms constitutes one of the foundations of the 
international order. Therefore we have not only a right but a 
responsibility to hold Russia--an OSCE state--accountable for 
the standing violation of its commitments.
    Fourth, the assault on human rights and the rule of law--
and the imprisonment of human rights defenders--is a standing 
violation of principle seven of the Helsinki Final Act--the 
right of people to know and act upon their rights, and here 
too, Russia must be held accountable re: its political 
prisoners.
    Fifth, from a global perspective, Global Justice for Sergei 
Magnitsky legislation should combat the resurgent global 
authoritarianism--and the culture of impunity that underpins 
it--by sanctioning human rights violators, be they in Russia, 
Venezuela, or South Sudan, which is something Canada has done 
since our adoption of the legislation. In the end of the day, 
in adopting Magnitsky legislation we make a statement not only 
of what we must do, but of who we are.
                        MATERIAL FOR THE RECORD


  Cover of the Canadian Parliament Foreign Affairs Committee Report, 
                               April 2017

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
